                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              MANAGEMENT ADVISORY COMMENTS IDENTIFIED
                                              IN AN AUDIT OF THE CONSOLIDATED FINANCIAL
                                              STATEMENTS
                                              FOR THE YEAR ENDED SEPTEMBER 30, 2009



                                              This report was prepared by KPMG LLP, under contract to the U.S.
                                              Department of Labor, Office of Inspector General, and by acceptance, it
                                              becomes a report of the Office of Inspector General.




                                                                                       U.S. Department of Labor
                                                                              Assistant Inspector General for Audit




                                                                                 Date Issued:     March 18, 2010
                                                                                 Report Number: 22-10-006-13-001
                                                                                      Prepared by KPMG LLP
                                                 for the U.S. Department of Labor—Office of Inspector General




Table of Contents
                                                                                                                      PAGE
EXECUTIVE SUMMARY ................................................................................................ 3
EXHIBIT I - COMMENTS AND RECOMMENDATIONS ................................................. 7
 1.    Improvements Needed in Financial Reporting .............................................. 7
 2.    Budgetary to Proprietary Analyses ................................................................ 9
 3.    Budget Reporting Processes........................................................................ 11
 4.    Recording of Budget Authority .................................................................... 12
 5.    Grant Closeouts and Deobligation of Grant-related Undelivered
       Orders ............................................................................................................. 15
 6.    Grant Monitoring............................................................................................ 21
 7.    Maintenance of Certain Expense Supporting Documents ......................... 24
 8.    Accounting for Certain Job Corps Contracts.............................................. 26
 9.    Compliance with the Prompt Payment Act .................................................. 28
 10.   Non-grant/Non-Unemployment Trust Fund Undelivered Orders ............... 30
 11.   Statement of Differences Reconciliation Process ...................................... 34
 12.   Other Fund Balance with Treasury Reconciliations ................................... 38
 13.   Untimely Clearing of the Capital Asset Tracking and Reporting System
       Holding File .................................................................................................... 40
 14.   Property, Plant, and Equipment Additions .................................................. 42
 15.   Construction In Progress Transfers ............................................................ 45
 16.   Review of Software in Development Balances............................................ 47
 17.   Property, Plant, and Equipment Disposals.................................................. 49
 18.   Improvements Needed in Property, Plant, and Equipment
       Reconciliation Controls................................................................................. 50
 19.   Periodic Accountability Reviews.................................................................. 52
 20.   Controls over the Integrated Federal Employees Compensation
       System ............................................................................................................ 54
 21.   Improvements Needed in Controls over Fiscal Year-End Estimates
       Related to the Federal Employees’ Compensation Act .............................. 55
 22.   Reconciliation of Child Agency Data Reported in the DOL
       Trial Balance .................................................................................................. 57
 23.   Accounting for the State Unemployment Insurance and Employment
       Services Operations Activities ..................................................................... 59
 24.   Reestablishment of the Unemployment Compensation
       Advisory Council ........................................................................................... 60
 25.   Process for Completing Background Checks Investigations .................... 61
EXHIBIT II - STATUS OF PRIOR YEAR COMMENTS................................................. 65
APPENDIX A ................................................................................................................ 80
 Acronyms and Abbreviations .................................................................................. 80



                                                                                 Management Advisory Comments
                                                                           For the Year Ended September 30, 2009
                                                        1                        Report Number: 22-10-006-13-001
                                                Prepared by KPMG LLP
           for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                    Management Advisory Comments
                              For the Year Ended September 30, 2009
               2                    Report Number: 22-10-006-13-001
                                                                        Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General




Executive Summary
KPMG LLP, under contract to the United States Department of Labor (DOL or the
Department), Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2009. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. The objective of
the audit was to express an opinion on the fair presentation of DOL’s consolidated
financial statements. Additionally, other objectives included expressing an opinion on
DOL’s compliance with requirements of section 803(a) of the Federal Financial
Management Improvement Act (FFMIA) of 1996 (Public Law 104-278), based on an
examination.

In planning and performing the audit, DOL’s internal control over financial reporting was
considered in order to determine auditing procedures for the purpose of expressing an
opinion on the consolidated financial statements. The objective of the audit was not to
provide assurance on DOL’s internal control over financial reporting; accordingly, such
an opinion was not provided. However, certain matters were noted involving internal
control and its operation that were considered to be significant deficiencies, and certain
other matters were noted that were considered to be management advisory comments.

This report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments identified in
the audit. A separate report will be issued to the Chief Information Officer and the
Acting Deputy Chief Financial Officer containing management advisory comments
pertaining to the audit procedures performed over the Department’s general and
application controls over information technology (IT) systems that support the
consolidated financial statements.

Significant Deficiencies

Details over the significant deficiencies, listed below, have been included in the
Independent Auditors’ Report found in DOL’s FY 2009 Performance and Accountability
Report.

   1. Lack of Adequate Controls over Access to Key Financial and Support Systems
   2. Weakness Noted over Payroll Accounting
   3. Lack of Segregation of Duties over Journal Entries
   4. Lack of Sufficient Controls over Financial Statement Preparation


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        3                   Report Number: 22-10-006-13-001
                                                                        Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General


Management Advisory Comments

Although not considered to be significant deficiencies, certain other non-IT matters were
noted during the audit which we would like to bring to management’s attention. These
findings and recommendations are presented in this report.




                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       4                    Report Number: 22-10-006-13-001
                                                                                Prepared by KPMG LLP
                                           for the U.S. Department of Labor—Office of Inspector General



                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036




March 11, 2010


Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Mr. Daniel Lacey, Acting Deputy Chief Financial Officer
U.S. Department of Labor
Washington, DC 20210


Mr. Lewis and Mr. Lacey:

We have audited the consolidated financial statements of the United States (U.S.)
Department of Labor (DOL) for the year ended September 30, 2009, and have issued
our report thereon dated November 15, 2009. In planning and performing our audit of
the consolidated financial statements of DOL, in accordance with auditing standards
generally accepted in the United States of America, we considered DOL’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the consolidated financial
statements but not for the purpose of expressing an opinion on the effectiveness of
DOL’s internal control. Accordingly, we do not express an opinion on the effectiveness
of DOL’s internal control. We have not considered internal control since the date of our
report.

During our audit, we noted certain matters involving internal control and other
operational matters that do not relate to information technology and are presented for
your consideration. These comments and related recommendations, all of which have
been discussed with the appropriate members of management and have been
communicated through the issued Notifications of Findings and Recommendations
(NFRs), are intended to improve internal control or result in other operating efficiencies
and are summarized in Exhibit I. In addition, we summarized the status of our prior year
comments in Exhibit II. Comments involving internal control and other operational
matters noted that relate to information technology will be presented in a separate letter
to you and the Chief Information Officer.

In addition, we identified certain deficiencies in internal control that we consider to be
significant deficiencies, and communicated them in our Independent Auditors’ Report
dated November 15, 2009.




                                                                                              Management Advisory Comments
                                                                                        For the Year Ended September 30, 2009
                                                       5                                      Report Number: 22-10-006-13-001
                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
                                                                        Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General




Our audit procedures are designed primarily to enable us to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist. We aim, however, to use our knowledge of
DOL’s organization gained during our work to make comments and suggestions that we
hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at
any time.

This communication is intended solely for the information and use of DOL
management and DOL’s Office of Inspector General, and is not intended to be and
should not be used by anyone other than these specified parties.

Very truly yours,




                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       6                    Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I




Comments and Recommendations
1. Improvements Needed in Financial Reporting

We reviewed the Management’s Discussion and Analysis (MD&A) in the United States
(U.S.) Department of Labor’s (DOL) Fiscal Year (FY) 2009 Performance and
Accountability Report (PAR) and noted that the program level audited net costs in the
Statement of Net Cost (SNC) were not directly linked to the net costs of the strategic
goals reported in the MD&A, in accordance with the Office of Management and Budget
(OMB) Circular No. A-136, Financial Reporting Requirements. In addition, we noted that
the MD&A and the Performance Section were not consistent with financial information in
the PAR, as the Pension Benefit Guaranty Corporation (PBGC) performance results
were included in these sections; however, PBGC is properly excluded from DOL’s
consolidated financial statements. As a result, the PAR readers are unable to easily
relate audited costs by program presented in the SNC to the strategic goals discussed
in the MD&A, and inconsistency exists within the PAR with regard to the inclusion of
PBGC in the MD&A and Performance Section and exclusion from the financial section.

The Office of the Chief Financial Officer (OCFO) personnel believe that DOL’s strategic
goals have been sufficiently linked to the SNC because, for each year presented, the
total net cost of operations in DOL’s MD&A section is reconciled to the corresponding
total presented on the SNC. In addition, in FY 2007, DOL obtained a permanent waiver
from OMB to exclude PBGC from DOL’s reporting entity and therefore, from its
consolidated financial statements; however, this waiver did not address performance
results. Absent discussion in the waiver about performance results and given the
inclusion of PBGC in DOL’s budget, DOL believes it should include PBGC performance
results in its MD&A and Performance Section. In response to our prior year comment on
PBGC, the Assistant Secretary for Administration and Management sent OMB a letter
on August 28, 2009 requesting guidance on whether or not PBGC performance
information should be included in DOL’s PAR. However, a conclusion has not yet been
communicated.

Section II.2.6 of OMB Circular No. A-136 states, “Entities should strive … to the extent
possible, [to] indicate results achieved and relate major goals and objectives in their
strategic plan to cost categories (i.e., responsibility segments) presented in the entity’s
Statement of Net Cost (SNC).”

In addition, section II.4.4.1 of OMB Circular No. A-136 states, “The SNC should show
the net cost of operations for the reporting entity, as a whole, by major program, which
should relate to the major goal(s) and output(s) described in the entity’s strategic and
performance plans, required by [Government Performance and Results Act (GPRA)].”


                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        7                    Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Section II.1 of OMB Circular No. A-136 states, “Under the Reports Consolidation Act of
2000 (Pub. L. No. 106-531), agencies are permitted to submit combined reports in
implementing statutory requirements for financial and performance management
reporting to improve the efficiency of executive branch performance. These reports are
combined in the PAR, which consists of the Annual Performance Report required by
GPRA. (Pub. L. No. 103-62) with annual financial statements and other reports, such
as agencies’ assurances on internal control, accountability reports by agency heads and
IGs’ assessments of the agencies’ most serious management and performance
challenges. PARs provide financial and performance information that enables the
President, the Congress, and the public to assess the performance of an agency
relative to its mission and to demonstrate accountability.”

Section II.2.1 of OMB Circular No. A-136 states, “The MD&A should provide a clear and
concise description of the reporting entity’s performance measures, financial
statements, systems and controls, compliance with laws and regulations, and actions
taken or planned to address problems.” In addition, section II.2.3 indicates, “The MD&A
provides management with a vehicle for communicating insights about the entity,
increasing the understandability of financial information, and providing information about
the entity, its operations, service levels, successes, challenges, and future.”

Recommendations

We recommend that the Assistant Secretary for Administration and Management, who
is responsible for the preparation of the MD&A and Performance Section of the PAR:

1. Develop and implement procedures to better link the SNC to DOL’s strategic goals.

2. Follow-up with OMB to reach a conclusion on whether or not PBGC performance
   information should be reported in DOL’s PAR.

Management’s Response

In the FY 2008 PAR (see p.16), the net cost of DOL Strategic and Performance Goals
were reconciled to the financial statements, as they were again in the FY 2009 PAR.
While this reconciliation differs from the categories employed in Note 15A, we believe it
meets the criteria stated above, as the aggregated totals have been reconciled.

The example provided in the Background section implies DOL should create another
statement reconciling net costs of the Major programs identified in Note 1A.2 with the
net costs of the associated Strategic Goals. The example cited is the inconsistency of
net cost for Income Maintenance ($50.314 billion in Note 15A) and the net cost of
Strategic Goals 4 ($48.957 billion in the Program and Performance net cost table in the
MD& A on p.16).



                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        8                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

The mapping of major programs to Strategic Goals is not executed on a one-to-one
basis. For example, Strategic Goal 4 includes programs and costs that are not
associated with Income Maintenance but Labor, Employment, and Pensions (EBSA,
OWCP, and OLMS). Even if DOL were to produce a crosswalk between the two
program types, there would still be additional matters to resolve, including DOL training
programs operating under a Program Year vs. a Fiscal Year, which we currently
reconcile in the aggregate, but not at the program level.

It should be noted that in FY 2010, the Department expects to substantially revise its
strategic goals as it develops a new Department-wide strategic plan. The strategic plan
will cover Fiscal Years (FY) 2010-2015 and highlight key programs and activities
supporting strategic goals. The strategic planning process will take an entire fiscal year
to complete and allows for Department-wide coordination, stakeholder consultation, and
review by the Office of Management and Budget (OMB). As a result of this undertaking,
the Department’s strategic goals and alignment of programs to the goals will be
revisited.

DOL has formally notified OMB of the finding and has requested guidance on the issue
of inclusion of PBGC’s performance information in the DOL PAR.

Auditors’ Response

These recommendations are considered resolved and open.       FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

2. Budgetary to Proprietary Analyses

During our audit work related to the budgetary to proprietary analyses, we noted the
following:
•   The budgetary to proprietary analyses for the quarters selected for testing
    (specifically, FY 2009 second and fourth quarters) were not provided to us timely.
•   The OCFO did not formally document the budgetary to proprietary analyses
    procedures and the expected timeframe for completion and review for each quarter.
These exceptions occurred because the OCFO did not want to provide the budgetary to
proprietary analyses until all identified differences had been researched, resolved, and
reviewed by a supervisor. In addition, the OCFO had not formally documented the
relationship analyses procedures and the related timeframes because the OCFO was
still in the process of refining the procedures and the expected timeframes.

As a result, the OCFO may not detect material differences between budgetary to
proprietary accounts in a timely manner, increasing the risk of misstating quarterly
financial information and the year-end financial statements.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        9                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I


U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government (the Standards) states, “Internal control should generally be
designed to assure that ongoing monitoring occurs in the course of normal operations.
It is performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations, and other
actions people take in performing their duties.”

Recommendations

We recommend that the Acting Deputy Chief Financial Officer:

1. Complete the implementation of comprehensive quarterly budgetary to proprietary
   relationship analyses (including documented resolution of identified differences).
   These analyses should be documented, reviewed, and approved by an appropriate
   supervisor in a timely manner. In addition, documentation should be maintained to
   support these activities.
2. Formally document the relationship analyses procedures and the expected
   timeframe for completion and review for each quarter.

Management’s Response

In FY 2009, OCFO significantly improved the quarterly budgetary to proprietary
relationship analysis. OCFO developed an enhanced process, which in addition to
creating an improved analytical methodology, provides for the production of a complete
package that identifies the variances, documents their resolutions, requires the
maintenance of the supporting documentation, and calls for supervisory review of the
analysis.

In regards to the timeliness of the analysis, it should be noted that the second quarter
variances were identified in April. However, the completion of the analysis was delayed
due to management’s decision to improve the overall process, including the resolution
of variances. Furthermore, the year-end analysis was completed timely. While
additional time was needed to research and explain variances, the analysis was
provided to the auditors within 34 days of the end of the quarter.

Based upon the enhanced process, no later than June 30, 2010, OCFO will develop
procedures, which include a timeframe for the completion and review of the analysis.

Auditors’ Response

These recommendations are considered resolved and open.       FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       10                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I


3. Budget Reporting Processes

During our audit procedures over the FY 2009 SF-132, Apportionment and
Reapportionment Schedule, and SF-133, Report on Budget Execution and Budgetary
Resources, we noted the following:

•   The Departmental Budget Center (DBC) reported appropriated receipts in the
    amount of $63 million on Line 3D1A, Offsetting Collections – Earned, Collected
    instead of Line 3A1, Budget Authority, Appropriation – Actual of the SF-132 for
    Treasury Account Fund Symbol (TAFS) 16X5393, as required by OMB Circular No.
    A-11, Preparation, Submission, and Execution of the Budget.

•   For TAFS 16X0186, DOL did not report obligations incurred for Category B in the 4th
    quarter SF-133 at the same level as apportioned funds reported in the SF-132, as
    required by OMB Circular No. A-11. DOL incorrectly reported in the SF-133 on line
    8A, Category B, the sum of lines 8B1, Recovery Act – Payments to EUCA/Extension
    Benefits, and 8B2, Recovery Act – Payments to ESAA/Extension Administration
    reported on the SF-132.

The issues above occurred because the OCFO is not performing an adequate review of
the SF-132s and SF-133s prior to submission to OMB and the U.S. Department of the
Treasury (Treasury). As a result, the risk increases that inaccurate budgetary
information could be reported to OMB and Treasury and in the consolidated financial
statements.

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews […] and the creation and
maintenance of related records which provide evidence of execution of these activities
as well as appropriate documentation. Control activities may be applied in a
computerized information system environment or through manual processes.”

OMB Circular No. A-11, Appendix F, states that Line 3A1 should include the amount of
appropriated receipts “collected in the current fiscal year [and the amount of] anticipated
collection of available receipts.”

In addition, OMB Circular No. A-11, Section 130, states, “If your SF-132 apportions
funds on line 8B “Category B” at a certain level, then you must provide the same level of
detail on the SF-133.”




                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        11                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Recommendation

We recommend that the Assistant Secretary for Administration and Management
provide DBC staff and supervisors with specific guidance on proper preparation and
review of the SF-132s and SF-133s prior to submitting the forms to OMB and Treasury.

Management’s Response

DBC management concurs with the Notification of Findings and Recommendation and
has counseled staff and supervisors on the correct recording of this anticipated
budgetary resource on the SF-132, Apportionment Request. With the correct recording
of this budgetary resource on the SF-132 and within the accounting system (general
ledger), the correction will automatically be reflected in the corresponding SF-133.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

4. Recording of Budget Authority

During our substantive audit procedures over FY 2009 appropriations received and
apportionments, we noted that:

•   DOL did not record the budgetary and proprietary entries simultaneously for several
    budget authority events.

•   For TAFS where the budgetary resources were approved under continuing
    resolution by OMB but the Treasury Warrants were not yet received, DOL reported
    the related activities as Fund Balance – Authority Warrants (Account 1012) instead
    of Fund Balance with Treasury (FBWT) under a Continuing Resolution (Account
    1090).

•   DBC incorrectly calculated the amount to record as appropriations received for
    TAFS 16090200 by subtracting temporarily not available amounts reported on the
    SF-132 from the sum of actual appropriation received and anticipated expenditure
    transfers in from trust funds.

DOL’s practice is to record proprietary entries related to appropriations received only
when a Treasury Warrant is received. Budgetary and proprietary entries to post
Treasury Warrants are completed by two different agencies via two separate
transactions, which are not coordinated appropriately. The OCFO posted the proprietary
entries and DBC posted the budgetary entries. This policy could result in (1) potential


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       12                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

abnormal balances in FBWT upon disbursements for current year annual and multi-year
funds and (2) imbalances in budgetary/proprietary relationships.

In addition, DOL did not have a transaction code established to post entries to Account
1090 to record budgetary resources approved by OMB for which Treasury Warrants
have not yet been received. Although recording budgetary resources that were
approved under continuing resolution by OMB for which Treasury Warrants had not yet
been received as Fund Balance – Authority Warrants (Account 1012) instead of FBWT
under a Continuing Resolution (Account 1090) does not have an impact on the FBWT
reported in DOL’s financial statements, the recorded transactions are not in compliance
with the U.S. Standard General Ledger (USSGL).

Furthermore, because DBC staff was not aware of the transaction code that should be
used to record temporarily not available amounts, DBC staff netted the amounts for use
in the appropriations received transaction code. Recording budgetary resources net of
temporarily not available amounts reported on the SF-132 resulted in an
understatement as of March 31, 2009 of Other Appropriations Realized (Account 4119)
and Temporary Reduction – New Budget Authority (Account 4382) by $263 million and
$306 million, respectively.

Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial
Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other Financing
Sources and Concepts for Reconciling Budgetary Financial Accounting, paragraph 71
states, “Unexpended Appropriations. Appropriations, until used, are not a financing
resource. They should be recognized in capital as ‘unexpended appropriations’ (and
among assets as ‘fund balance with Treasury’) when made available for apportionment
even if a Treasury Warrant has not yet been received, or the amount has not yet been
fully apportioned.”

USSGL (August 2008 version), Section III, Account Transactions, transaction code
A196 states, “To record the annualized level of an appropriation provided under a
continuing resolution.”

      Budgetary Entry
      Debit 4119 Other Appropriations Realized
             Credit 4450 Unapportioned Authority

USSGL (August 2008 version), Section III Account Transactions, transaction code A197
states, “To record Fund Balance with Treasury under a continuing resolution as
determined by the Office of Management and Budget’s automatic apportionment
bulletin.”

      Proprietary Entry
      Debit 1090 Fund Balance with Treasury under a Continuing Resolution
             Credit 3101 Unexpended Appropriations – Appropriations Received

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      13                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I


USSGL (August 2008 version), Section III Account Transactions, transaction code
A135, states, “To record budget authority temporarily reduced by legislative action….”

      Budgetary Entry
      Debit 4450 Unapportioned Authority
             Credit 4382 Temporary Reduction – New Budget Authority

USSGL (August 2008 version), Section III, Account Transactions, transaction code
A104 states, “To record the enactment of appropriations.”

      Budgetary Entry
      Debit 4119 Other Appropriation Realized
             Credit 4450 Unapportioned Authority

      Proprietary Entry
      Debit 1010 Fund Balance with Treasury
             Credit 3101 Unexpended Appropriation – Appropriations Received

Recommendations

We recommend that the Acting Deputy Chief Financial Officer:

1. Combine the transaction codes used to record budget authority so that such
   proprietary and budgetary entries are posted simultaneously.

2. Establish a transaction code to record budgetary resources approved by OMB for
   which Treasury Warrants had not yet been received in compliance with the USSGL.

In addition, we recommend that the Assistant Secretary for Administration and
Management:

3. Develop and implement procedures to consult with the OCFO for guidance on
   appropriate transaction codes to be used to record economic events when the
   information is not available for DBC staff.

Management’s Response

OCFO agrees with the recommendations. As such, we set up new transaction codes
which comply with the USSGL requirements. We are already implementing this
change.




                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      14                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Auditors’ Response

These recommendations are considered resolved and open.       FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

5. Grant Closeouts and Deobligation of Grant-related Undelivered Orders

Employment and Training Administration (ETA) grantees are required to submit
Financial Status Reports (ETA 9130s) to ETA on a quarterly basis. Reports are due
within 45 days after the end of the quarter. The E-Grants application allows ETA’s
grantees to directly submit required financial information via the internet. Once the
grantee has submitted and certified the financial data, the data is reviewed and
accepted by the responsible Federal Project Officer (FPO), and is automatically
uploaded into the Department of Labor Accounting and Related Systems (DOLAR$),
DOL’s general ledger.

It is the responsibility of the FPO to monitor his/her grantees to ensure that the
appropriate financial and performance reports are submitted in a timely manner. To aid
in the monitoring process, the Department of Financial and Systems Services (DFSS)
prepares a “Delinquent Reporting Analysis” to identify grantees that are delinquent in
reporting their costs to ETA. For those grantees identified, DFSS staff notifies the
assigned FPO, who is responsible for contacting the grantee to obtain the missing
financial reports and/or to ascertain the reason for the delinquency before further action
is taken.

The Delinquent Reporting Analysis identifies all open grants that do not have costs
submitted for a particular quarter. Therefore, in addition to delinquently reporting
grantees, the analysis shows grants for which financial reports have been submitted but
not yet accepted by the FPO. The analysis also presents expired grants that have not
yet completed the closeout process.

Currently, deobligation of grant undelivered orders (UDOs) is processed during the
grant closeout phase. Grant closeout data is generated from E-Grants. This data
indicates the beginning and end date for all grants. The beginning and end dates for
new grant awards are entered directly into E-Grants by the grant office.

In addition, prior to FY 2008, Veteran’s Employment and Training Service (VETS)
grants were tracked and monitored through the VETS Operations and Programs Activity
Report (VOPAR) system. VETS began implementing E-Grants in FY 2008 to track and
monitor its grants and, beginning in FY 2009, all new VETS grants are now processed
through E-Grants. VETS’ grantees are required to submit Financial Status Reports (SF-
269) to VETS on a quarterly basis. Reports are due within 45 days after the end of the
quarter. In accordance with the Department of Labor Manual Series (DLMS) 2, Chapter
877, VETS grants are to be closed within 12 months of expiration.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        15                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I


During our testwork over FY 2009 grant controls and UDO balances, we noted the
following:

•   2 of the 4 expired ETA grants tested had UDO balances that had not been
    deobligated as of the date of our testwork and more than 12 months had passed
    since the grant expired.

•   1 of the 4 expired ETA grants tested had a trade benefits program within a
    Workforce Investment Act (WIA) grant. The overall WIA grant was still valid, but the
    trade benefits program had expired. Even though the trade benefits program had
    expired, the unused funds for the program had not been deobligated as of the date
    of our testwork and more than 12 months had passed since the grant expired.

•   2 of 45 ETA grants tested were not closed out within 12 months of their expiration
    date.

•   For 1 of the 239 ETA grant-related UDO balances tested, the grant had expired but
    had not been closed out within 12 months of its expiration date.

•   For 2 of the 9 VETS grants tested, the grants had expired as of June 30, 2007, and
    June 30, 2008, respectively, and closeout had not been conducted.

The above instances in the first 2 bullets occurred because closeout delays led to a
failure to deobligate unused grant funds for expired grants. ETA generally does not
initiate deobligations outside of the closeout process. In addition, ETA has not
formulated policies and procedures to identify grants with programs having varying
expiration dates. Furthermore, ETA has not designated the appropriate personnel to
initiate deobligations of program funds at expiration of the program when the grant is
still active.

The exception noted above in the third bullet occurred because the ETA grants expired
on March 31, 2008 but were not assigned to a Closeout Specialist until 11 months after
expiration. This resulted in insufficient time for the closeout specialist to close the grant
within 12 months of the grants’ expiration date. Per discussion with personnel from the
ETA closeout unit, the Grant Closeout System (GCS) sent the closeout unit a message
notifying it of the upcoming expiration; however, the closeout unit rejected the
notification. The closeout unit did not keep track of the grants that were rejected for
closeout, and such grants were not discovered until a Closeout Specialist performed a
review of all grants to “clean up” those that had expired.

In addition, the exception noted above in the fourth bullet relates to a grant that expired
on June 30, 2007. Per discussion with the Closeout Specialist, the grantee is difficult to
contact due to its location. This lack of communication has hindered the closeout


                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                         16                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

process. Additionally, deobligation is not typically performed outside of the closeout
process.

Lastly, the exceptions noted above related to VETS grants occurred because of the
Office of the Assistant Secretary for Administration and Management’s (OASAM)
backlog of contracts and grants that have expired and should be closed out. OASAM
has hired a contractor to assist with the closeout process; however, the backlog has not
yet been cleared.

Without adequate controls to monitor the status of UDOs and deobligate remaining
funds timely, UDOs may be overstated.

U.S. Code Title 31 Section 1501, Documentary Evidence Requirement for Government
Obligations, “an amount shall be recorded as an obligation of the United States
Government only when supported by documentary evidence of a binding agreement
between an agency and another person (including an agency) that is (a) in writing, in a
way and form, and (b) for a purpose authorized by law and executed before the end of
the period of availability.” Section 1554, Audit, control and reporting, states "The head of
each agency shall establish internal controls to assure that an adequate review of
obligated balances is performed to support the certification required by section 1108(c)
of this title."

In addition, GAO’s Standards states, “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records which provide evidence of
execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

GAO’s Standards also states, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

Furthermore, ETA’s Closeout Manual provides the internally-developed closeout
procedures and documentation on the timeframe for the assignment of grants
scheduled to be closed, the receipt of closeout documents from the grantee, and the
reconciliation of the closeout documents by the closeout specialist. The Closeout
Manual indicates that in accordance with DLMS 2, Chapter 800, Section 877 “grants
and agreements are to be closed within 12 months of the expiration or termination of the
grant or agreement.”


                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        17                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

Recommendations

We recommend that the Assistant Secretary for Employment and Training improve the
procedures for deobligating UDOs related to expired grants and programs. These
procedures should include:

1. Closeout supervisors review of the Closeout Inventory Tracking System (CITS) with
   the closeout specialists periodically to (a) determine the status of grant closeouts in
   conjunction with and/or in addition to regular monthly meetings, (b) follow-up on any
   grants that have not been closed within the established time frames to ensure timely
   resolution, and (c) initiate deobligations of invalid UDO balances for grants
   experiencing closeout delays.

2. Identification of grants with programs having varying expiration dates, and
   designation of appropriate personnel to initiate deobligations for these programs at
   the time of the program’s expiration.

3. Tracking and prompt resolution of rejected expiration notifications.

4. Review of all grants on a more frequent basis (e.g., quarterly) to (a) ensure that all
   grants nearing or past expiration are properly identified and assigned to a Closeout
   Specialist and (b) make appropriate deobligations when it is reasonably expected
   that the grantee will not be reporting any additional expenses even if the grant has
   not been fully closed out.

In addition, we recommend that the Assistant Secretary for the Veteran’s Employment
and Training Service, in coordination with the Assistant Secretary for Administration and
Management, develop and implement specific procedures to complete the grant
closeout process within 12 months of each grant’s expiration in accordance with DLMS.
These procedures should include:

5. Continuing “clean up” of all expired grants to bring all grant closeouts up to date.

6. Deobligating funds when it is reasonably expected that the grantee will not be
   reporting any additional expenses.

Management’s Response

ETA Response

ETA’s Division of Policy, Review, and Resolution (DPPR) existing procedures are more
than adequate to address KPMG’s recommendations. The closeout supervisor holds
formal quarterly meetings with the Closeout Unit staff. In addition, monthly reviews are
performed with the senior resolution specialist who carefully manages the CITS. These
reviews include, but are not limited to, monitoring the monthly inventory of closeout

                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        18                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

cases, determining if closeout specialists are meeting internal deadline requirements,
balancing workload among staff, and resolving other issues, as necessary. If closeout
issues are identified, the closeout supervisor follows up with individual staff person(s)
within 3-5 days to ensure immediate action has been taken to resolve the identified
case closure or workload issue. In addition, the closeout supervisor follows up with staff
concerning any issues that have arisen to impede the Closeout Unit’s goal of meeting
the federally regulated closeout deadline of 12 months. All issues are thoroughly
investigated and documented for the file. Lastly, at times issues may arise, such as
staffing problems, grantee communication problems due to location, or system
malfunctions that will unfortunately cause untimely closeouts. These situations, although
unavoidable, are addressed immediately.

The performance of partial fund de-obligations within active grants would require
departure from standard Department-wide requirements reflected in the DLMS. ETA is
required by Departmental policy to adhere to the DLMS standards and procedures. In
addition, partial de-obligations would require closing and reopening the entire grant
numerous times, violating internal control standards and ultimately resulting in an
inefficient use of staff time and effort in both ETA and PROTECH offices. Additionally,
ETA’s policy concerning multiple source funded grants, with varying fund expiration
dates, are set forth in Employment Training Order-3-05, which states “Upon notification
that the agreement has expired and is ready for closeout, the Closeout Unit will begin
the closeout process.” Thus, the closeout unit cannot make any deobligation actions
until after the entire grant expires.

In response to recommendation 3, ETA’s Closeout unit is alerted, by the Grant Closeout
System (GCS), within 60 days of a grant’s expiration. During this time, the Closeout
Unit consults with the program official and/or the grantee to determine whether the grant
will in fact expire on its intended expiration date or be extended to a new expiration
date. If it is found that the grant will indeed expire, it will be “verified” in the GCS and
added to the closeout inventory. If the grant will be extended, it will be “rejected” in the
GCS. The lead Resolution Specialist has developed a master list of the extended
grants. The list has been maintained in Excel since March 2009. It is checked and
updated monthly to ensure that the new expiration dates for previously rejected grants
are identified and grants are assigned to the Specialist in a timely fashion. The master
list of all the grants is easily retrieved, updated, and sorted by expiration date. As of its
development, we have not experienced any missed expiration dates.

In consultation with OCFO, ETA will review the grant closeout monitoring and tracking
procedures and make improvements as necessary.

OASAM-OPS Response

The Office of Procurement Services (OPS) is not allocated a position designated as a
closeout specialist to perform the closeout function for grants. This function is included
in the duties of the Grant Specialist and is part of a larger workload. To assist in

                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                         19                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

performing this function, OASAM has provided funds for contractor support since July
2007.

In response to closing grants within 12 months of the expiration date, it is not always
possible to close grants within 12 months due to pending issues that must be resolved
prior to closeout. Depending on the amount of research involved, the process can take
anywhere from 30 to 180 days. In July 2007, the contractor was provided a total of 129
VETs grants and 70 ODEP grants to close. Of the initial 129 VETs grants provided, the
contractor was able to close a total of 101. There are 28 VETs and 70 ODEP grants
remaining from the initial inventory provided in July 2007. The contractor is making
significant progress in reducing the inventory backlog.

The closeout function is an on-going process and OASAM will continue to provide
contractor support for this function during FY 2010. To support this effort, funds have
been provided and communication with the contractor took place in September 2009.
The Grant Officer provided the contractor an additional 232 grant files in October 2009
— 156 VETs, 56 ODEP, and 20 Women’s Bureau (WB). The contractor currently has
330 grant files remaining in inventory consisting of 184 VETs, 126 ODEP, and 20 WB
grants. The contractor has been directed to perform quick closeout procedures on
those grants dated prior to 2004 since the funding has expired. Quick closeout
procedures will allow grants with no funding to be closed administratively.

VETS Response

VETS does not agree with the finding on the grant close-out process. However, VETS
has agreed to take the lead in notifying the OCFO-Division of Client Accounting
Services (DCAS) of the de-obligation of funds from expiring grants, which it has done in
the past and will notify the OASAM-Office of Procurement Services (OPS) of grants
targeted for close-out. VETS is also contributing funds for contractor support in the
close-out of grants, as the agency has for the past three years. An addendum to the
current roles and responsibilities related to grant closeouts is reflected in the Agency’s
Mission and Function Statement.

Auditors’ Response

The recommendation for OASAM is considered resolved and open. Although ETA
and VETS stated that they do not concur with the characterization of our comments,
ETA and VETS have taken steps to address our recommendations. Therefore, these
recommendations are also considered resolved and open. FY 2010 audit procedures
will determine whether these recommendations have been adequately addressed and
can be considered closed.




                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        20                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

6. Grant Monitoring

Post-award grant monitoring is primarily the responsibility of ETA regional offices. The
FPOs are responsible for monitoring their assigned grantees. The monitoring activities
performed over the grantees include risk assessments, quarterly desk reviews, and on-
site monitoring visits.

Within 30 days after receipt of the quarterly financial status and performance reports
from the grantees, but no later than 75 calendar days after the end of the calendar
quarter, the FPO performs a desk review. The desk review is a comprehensive review
of the financial status and performance reports submitted by the grantee. The FPO’s
review and determinations are documented in the Grants e-Management System
(GEMS).

During our testing of ETA’s grant monitoring controls, we noted the following
deficiencies:

•   A desk review was not completed for 1 of the 25 financial status and performance
    reports tested. We note that the related grant is monitored by an FPO in the national
    office.

•   A desk review was not completed timely for 5 of the 25 financial status and
    performance reports tested. Two of these desk reviews related to grants monitored
    by FPOs in the national office and should have been completed by March 16, 2009.
    However, the reviews were not completed until August 11 and August 14, 2009,
    respectively. The other three desk reviews are related to grants monitored by FPOs
    in the regional offices. These three reviews should have been completed by March
    16, 2009; however, one of the reviews was not completed until April 16, 2009, and
    the other two were not completed until June 18, 2009.

•   Adequate documentation supporting that the FPO had followed-up timely with the
    grantees on report delinquencies did not exist for 2 of the 23 delinquent grantees
    selected for testing.

The above exceptions occurred because ETA has no supervisory review procedures in
place to ensure FPOs are completing and submitting the desk reviews in a timely
manner. In addition, the national office FPO responsible for two of the untimely desk
reviews stated that these reviews related to Native American grants that were not
previously monitored through GEMS. FPOs were first required to submit the desk
reviews for these grants in GEMS for the quarter ended December 31, 2008.
Management indicated that submission was untimely as there was a delay caused by
transferring grant information into GEMS. Management’s first priority was to transfer all
information into GEMS, and then catch up on the desk reviews. We were not able to
obtain supporting documentation for this new guidance or that a review was performed
outside of GEMS.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       21                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


The regional FPO responsible for two of the untimely desk reviews stated that he
completed the desk reviews in a timely manner but was unable to successfully submit
the review in GEMS. However, he was unable to provide any supporting documentation
for our review.

Furthermore, we noted that ETA did not consistently maintain adequate support for
communications with grantees to resolve issues such as delinquent reporting. In
addition, for grants monitored by the national office rather than a regional office, the
appropriate responsible party may not have been aware of the required monitoring
procedures or the funding stream to be able to monitor the related report.

Without adequate detective controls over the grant expense process, grantees may
intentionally or unintentionally misreport grant expenses without being detected by DOL.
Without adequate controls over the grant reporting process, grantees may be misusing
grant funds without being detected by DOL. As a result, grant-related expenses,
advances, payables, and UDOs could be misstated.

Per DOL’s General Guidance on GEMS Usage for FY05 memorandum, DOL’s policy
regarding desk reviews states that, “desk reviews should be completed 30 days after
receipt of the quarterly reports from grantees, but no later than 75 calendar days after
the end of the calendar quarter.”

Per ETA’s Delinquent Filers Monitoring Procedures, “Each FPO is asked to contact the
grantees and ensure that certified reports are submitted to ETA and are
reviewed/accepted by the FPO through the cost reporting system.”

In addition, GAO’s Standards states “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records, which provide evidence
of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

Furthermore, U.S. Code Title 31, Chapter 75 (commonly referred to as the "Single Audit
Act''), states, “Each Federal agency shall, in accordance with guidance issued by the
Director under section 7505, with regard to Federal awards provided by the agency –
(1) monitor non-Federal entity use of Federal awards…”

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure the
following improvements are made to ETA’s internal control structure:


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       22                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

1. Require supervisors to periodically review a sample of FPO desk reviews to confirm
   that the reviews are being completed timely. This review should be documented.

2. Develop an exception report in GEMS to note when desk reviews have not been
   performed by the FPO. The exception report should also highlight/track desk reviews
   that are close to or beyond the completion deadline of 75 calendar days after the
   end of the calendar quarter. Supervisors should review these reports periodically
   and follow-up with the FPOs as appropriate.

3. Reinforce procedures, especially in the national office, which require a detailed
   review of the “Delinquent Reporting Analysis” by the FPOs each quarter. In addition,
   develop and implement procedures for supervisors to perform a quarterly review of a
   sample of delinquent cost reports from the “Delinquent Reporting Analysis” to
   confirm that the FPOs are resolving delinquent reporting situations timely; this
   review should be documented.

4. Develop and implement procedures for FPOs, or other individuals contacting
   delinquent grantees, to maintain accurate and complete records of the
   communication and results.

Management’s Response

ETA managers and supervisors of FPOs are responsible for reviewing the work of
FPOs to ensure timeliness and compliance with internal controls as outlined in existing
policies and procedures. However, to reinforce these procedures, beginning in FY 2009,
ETA administrators and supervisor’s performance standards requiring quarterly
monitoring of FPO desk reviews. Additionally, ETA staff with grant management
responsibilities are required to follow applicable guideline (see Employment and
Training Order 1-08, the ETA Grants Management Desk Reference, and the ETA Core
Monitoring Guide).

With respect to recommendation #2, ETA agrees and has instituted a reminder for
Regional Administrators and National Office managers of FPOs immediately following
the allowed review period following the end of each quarter (e.g. December 15, 2009,
for the quarter ending 9/30/09), which will ask that an exception report be run to
determine whether all desk reviews were accomplished timely.

ETA agrees with the auditor’s recommendations related to quarterly reviews of the
“Delinquent Analysis Report.” ETA Administrators and supervisors of FPO’s will
reinforce existing procedures related to delinquent grantees to include documentation of
follow up activities. Additionally, the Office of Accounting Services performs an
independent review of the effectiveness of agency procedures through confirmation that
grantee cost reports are being submitted timely and desk reviews are being done within
required timeframes. The results of these reviews are provided to the applicable FPO
for additional follow up.

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       23                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


Auditors’ Response

These recommendations are considered resolved and open.       FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

7. Maintenance of Certain Expense Supporting Documents

During our substantive testing over grant expenses for the period October 1, 2008
through March 31, 2009, we noted that ETA was not able to provide supporting
documentation for 4 of 132 sample items selected in a timely manner. We submitted our
samples to ETA on May 21, 2009, and requested that supporting documentation be
provided by June 2, 2009. However, ETA did not provide the supporting documentation
for the four items until July 17, 2009.

The delay occurred because of ETA’s inability to identify the appropriate personnel to
provide the supporting documentation in a timely manner. If ETA is unable to provide
supporting documentation in a timely manner, DOL may not be able to demonstrate
timely that certain balances are accurately stated in its annual financial statements.

In addition, during our testing over payroll expenses for the period of October 1, 2008
through March 31, 2009, we noted that OASAM Human Resources Center (HRC) did
not provide supporting documentation for 19 of 38 sample items in a timely manner. We
submitted our initial request for documentation on May 27, 2009, with a due date of
June 3, 2009. We received documentation on June 24, 2009. Subsequently, we
submitted our follow-up questions regarding missing supporting documentation related
to 19 sample items to the OCFO on July 21, 2009, and did not receive support for these
19 items until August 14, 2009. Therefore, it took 57 business days for the HRC to
provide the information requested (May 27, 2009 to August 14, 2009).

The delay noted above related to payroll expense occurred because of
miscommunication between the OCFO and the HRC. This miscommunication caused
the appropriate personnel to not provide the supporting documentation within a
reasonable amount of time. In addition, the decentralized nature of the human resource
community within DOL makes it difficult to coordinate the collection of needed
documentation. If HRC is unable to provide supporting documentation for audit samples
in a timely manner, DOL may not be able to demonstrate timely that certain balances
are accurately stated in its annual financial statements.

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.”

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       24                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


Recommendations

We recommend that the Assistant Secretary for Employment and Training develop and
implement procedures to identify the appropriate personnel to provide requested
supporting documentation timely.

In addition, we recommend that the Director of the Human Resources Center reinforce
audit response procedures to satisfy audit requests in a timely manner by:

1. Identifying the appropriate personnel to handle audit request timely.

2. Obtaining and providing supporting documentation to the auditors timely.

3. Providing answers to follow-up questions regarding audit samples timely.

4. Requiring designated supervisors to regularly monitor the progress of audit request
   responses.

Management’s Response

ETA Response

ETA has existing procedures in place to receive, distribute, and respond to audit
requests timely. Audit samples are received in ETA’s Division of Financial Accountability
and Reporting (DFAR) for initial review and distribution. The sample along with the
auditor’s request and deadline is submitted to the appropriate program and/or financial
offices for completion. To address the auditor’s recommendation, DFAR will request that
the program and/or financial office review, within 1-2 business days, the auditor’s
request and identify potential issues (i.e. wrong office, current workload, data not yet
available, etc.) in providing the documentation by the due date. Any potential issues will
be communicated to the auditor and the OCFO. ETA will continue to monitor these
procedures to ensure that they are effective in preventing untimely delays with future
data requests.

OASAM-HRC Response

Our management response remains the same as it was in our response to NFR-09-14,
dated September 14, 2009, which is as follows:

Action has been taken by OASAM-HRC management to ensure that responses to future
requests for information are provided in a complete and timely manner. We concur that
the delays in responding are due in part to the fact that requests for information are not
being directed to the appropriate officials in HRC who possess the scope of authority to
ensure that such requests are handled timely. Accordingly, HRC has advised the KPMG

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        25                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

auditors and the OCFO representatives that all future requests for information be
directed to the Director of HRC with a copy to the Executive Officer.

Directing requests to the aforementioned officials will ensure that the requests are being
routed to the appropriate staff within HRC, the OASAM Regional Human Resources
Offices (HROs), or the subagency National Office HROs as necessary, and that the
responses to future requests will be coordinated and monitored to ensure timely
response.

Auditors’ Response

These recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

8. Accounting for Certain Job Corps Contracts

During our audit procedures over the September 30, 2009 UDO balances, we identified
a UDO in the amount of $1 million with a period of performance that had ended on April
30, 2007. The contract was for the operation of a Job Corps center, and the contractor
had not submitted a final cost report. The cost report was subsequently obtained by the
Office of Job Corps (OJC) and reported that unexpended funds (i.e., the UDO balance)
was actually $42.

In addition, during our final analytical procedures over the September 30, 2009 financial
statements, we noted that the FY 2009 balance in “Other” advances increased
approximately $77 million from the prior year. As a result, we analyzed the population of
advances for Accounts 1411 and 1445 and noted that Job Corps contained the largest
balances. The OCFO staff subsequently obtained the related cost reports for some of
the UDOs and determined they had been fully expended. In addition, the OCFO
estimated that UDOs for internal agency codes (IACs) with funding years of FY 2006
and prior should also be fully expended since the funding had expired.

Based on an OCFO analysis, the OCFO calculated an estimated error of approximately
$85 million. Through our analysis of Accounts 1411 and 1445, we identified an
additional $6 million of UDOs that related to FY 2006 and prior and should be
considered invalid. As a result, we estimated that approximately $91 million of Job
Corps UDOs and related advances were invalid (i.e., overstated) as of September 30,
2009. These errors were not corrected in the FY 2009 financial statements and were
reported in the Summary of Audit Differences that was attached to the FY 2009
management representation letter.

The above issues occurred because OJC did not actively monitor the Job Corps centers
receiving advance payments to ensure expenditure information was being reported and
recorded in a timely manner.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        26                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


GAO’s Standards states that, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

Also, GAO’s Standards provides examples of control activities, which include “reviews
by management at the functional or activity level.”

Recommendations

We recommend that the Interim National Director of the Office of Job Corps:

1. Review the detail of Job Corps advances at September 30, 2009, identify all invalid
   advances, and post adjustments necessary to properly state the advance balance
   no later than March 31, 2010.

2. Develop and implement policies and procedures to monitor Job Corps centers
   receiving advances and perform follow-up, as necessary, to ensure centers are
   reporting expenditures timely.

Management’s Response

The Office of Job Corps concurs with the recommendation. The Office of Job Corps’
Division of Budget and Acquisition (Division) routinely engages in a review of all
advances in the regular course of business. The Division will ensure that any
adjustments (arising out of “invalid adjustments”) are promptly posted on or before
March 31, 2010.

The Division has procedures on the process for advances within regards to the financial
transfer of funding to the respective contractors. Please note that the national training
contracts and the nonprofit operators are those in receipt of “advances.” The Division
will review its current policies and procedures (and draft new guidelines where
applicable) to ensure that it continues to engage in the monthly monitoring of reported
expenditures, and adjustments where indicated.

Auditors’ Response

These recommendations are considered resolved and open.       FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.



                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        27                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

9. Compliance with the Prompt Payment Act

During our compliance testwork over the Prompt Payment Act, we noted that for 3 of the
58 invoices tested, payment was not made within 30 days:

• For one sample item, a $519 interest penalty required by the Prompt Payment Act
  due to a 14-day late payment was not paid.

• For one sample item, a $1,563 interest penalty required by the Prompt Payment Act
  due to a 43-day late payment was not paid.

• For one sample item, a $17 interest penalty required by the Prompt Payment Act due
  to a 2-day late payment was not paid

For each of these items, the regional offices entered the invoice into DOLAR$ on the
date it was approved for disbursement by the finance manager instead of the actual
date the invoice was received. In addition, no review process was in place to verify that
the proper invoice received date was entered into DOLAR$ to trigger the proper
payment due date in DOLAR$.

Without adequate internal controls over entering the proper invoice received date into
DOLAR$, invoice payments may not be made in accordance with the Prompt Payment
Act. In addition, interest penalties may be calculated incorrectly based on use of an
improper invoice received date.

Prompt Payment Final Rule (5 CFR Part 1315) §1315.5 (f) states the following: “The
period available to an agency to make timely payment of an invoice without incurring an
interest penalty shall begin on the date of receipt of a proper invoice…Unless otherwise
specified, the payment is due…30 days after the start of the payment period…if not
specified in the contract, if discounts are not taken, and if accelerated payment methods
are not used.”

§ 1315.10 of the Prompt Payment Final Rule explains that for late payments, “Interest
will be calculated from the day after the payment due date through the payment date at
the interest rate in effect on the day after the payment due date.”

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”




                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        28                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Recommendations

We recommend that the Acting Deputy Chief Financial Officer direct the Division of
Client Accounting Services (DCAS) to adopt the following improvements to its internal
control structure:

1. Reinforce procedures with the regional offices that invoice received dates entered
   into DOLAR$ should reflect the date of receipt of a proper invoice by DOL.

2. Develop and implement a periodic review process to verify that proper invoice
   received dates are entered into DOLAR$.

Management’s Response

OASAM-Atlanta Regional Office

The violation of the Prompt Payment Act initially was the result of the lack of obligation
of sufficient funds to cover the amounts of the invoices. This resulted in the invoices
being returned to the program office and resubmitted to the finance office for payment.
Upon resubmission of the invoices for payment, the Accounting Technician incorrectly
used the date the invoice was resubmitted to determine the payment due date.

Although the Accounting Technician responsible for the error has transferred to a new
assignment, other Financial Management Division staff has been directed to review and
certify in writing that they reviewed and understand 5 CFR 1315: Prompt Payment;
Formally OMB Circular A-125.

Considering the internal controls associated with the implementation of the New Core
Financial Management System (NCFMS), and the finance staff directed review of 5
CFR 1315: Prompt Payment; formerly OMB Circular A-125, future occurrences of such
incidents should be eliminated.

OASAM-San Francisco Regional Office

The violation of the Prompt Payment Act was the result of one OASAM Accounting
Technician’s misreading of the date stamps on the invoice in question. The accounting
Technician has been trained on interpreting the appropriate date to use on the invoices.
In addition, refresher training on Prompt Payment Guidance will be provided to all
OASAM San Francisco staff on a yearly basis. In addition, management will ensure that
the proper procedures are followed.

We believe that the late payment in question was the result of an isolated error and not
related to a breakdown in our process or policy on paying invoices in a timely manner.




                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        29                  Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

Auditors’ Response

These recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

10. Non-grant/Non-Unemployment Trust Fund Undelivered Orders

Under current policy, DCAS is required to send the Unliquidated Obligation Report to
the agencies monthly, and the agencies are required to inform DCAS if any UDOs on
that report require deobligation/adjustment. However, we noted that the DCAS did not
send the Unliquidated Obligation Report to the agencies for the month of September
2009 to enable the agencies to perform their monthly review of their UDOs.

In addition, during our substantive testwork over non-grant/non-Unemployment Trust
Fund (UTF) UDOs through September 30, 2009, we noted the following 28 instances of
invalid UDOs, related to OCFO, the Office of Safety and Health Administration (OSHA),
ETA, OWCP, and the Bureau of Labor Statistics (BLS), in our sample of 233 items:

• 25 sample items related to contracts that were expired for over 18 months and
  carried a UDO balance of $68 thousand.

• One sample item, in the amount of $17 thousand, related to a relocation travel
  authorization obligated in FY 2006.

• One sample item related to compensation bonuses for which an estimated $68
  thousand was obligated; however, the actual amount disbursed was only $59
  thousand. The remaining balance continued to be reported as a UDO.

• One sample item, in the amount of $50, related to a training course taken on
  November 19, 2008 for which the agency could not provide documentation to support
  the UDO’s continued validity.

In our sample of seven non-grant/non-UTF items related to the validity of UDOs, we
noted one item, in the amount of $350 thousand, for which no documentation was
provided to support the UDO’s continued validity at September 30, 2009.

In regards to the Unliquidated Obligation Report, the DCAS communicated they did not
accumulate and send it to the agencies due to time constraints at year end. In addition,
the 28 exceptions identified above were the result of agencies not adequately reviewing
their Unliquidated Obligation Reports to identify expired UDOs in order to deobligate as
necessary. Lastly, proper documentation was not maintained by the Office of Workers’
Compensation Programs (OWCP) to support a UDO balance related to the Black Lung
program.


                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                        30                 Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

Without adequate and timely review over UDO balances, these UDO balances may be
misstated.

The Unliquidated Obligation Report policies and procedures states, “The Department is
required to ensure all obligations are properly classified as accounts payable and or as
undelivered orders and ensure that all accruals/estimates are posted accurately and
that payments are made timely within the Prompt Pay timeframe. Per your agency’s
monthly Detailed Fund Report reviews and using the Unliquidated Obligations Reports
as a summary tool, your agency is requested to provide the DCAS accounting team
supervisor with any necessary adjustments on a monthly basis, preferably at least 5-6
days prior to the end of the month to allow us time to review your request and post the
adjustments in DOLAR$.”

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

In addition, GAO’s Standards states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

Recommendations

We recommend that:

1. The Acting Deputy Chief Financial Officer direct DCAS to reinforce formal policies
   and procedures to distribute the Unliquidated Obligation Report the last week of
   each month.

2. The Acting Deputy Chief Financial Officer, the Acting Assistant Secretary for
   Occupational Safety and Health, the Assistant Secretary for Employment and
   Training, the Director of the Office of Workers’ Compensation Programs, and the
   Commissioner of the Bureau of Labor Statistics reinforce formal policies for each
   agency to adequately and timely review the monthly Unliquidated Obligation Report
   to identify expired UDOs for deobligation as necessary.

3. The Director of the Office of Workers’ Compensation Programs reinforce policies and
   procedures to maintain proper supporting documentation for all accounting
   transactions and balances.

                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        31                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I


Management’s Response

BLS Response

The Bureau of Labor Statistics will reinforce requirements to complete adequate and
timely reviews of unliquidated obligations and take appropriate actions as necessary.

ETA Response

In response to recommendation #2, ETA will perform monthly analysis of the UDO
balances beginning in Quarter 2 of FY2010. ETA will request the UDO report from the
OCFO within 5 business days after the end of the month. ETA will review and transmit
the UDO report to the Cost Center managers for confirmation of invalid UDO balances
within 20 days of receipt of the UDO report. ETA will de-obligate or adjust invalid UDO
balances within 45 days after the end of each month.

OSHA Response

OSHA does not concur with the Notification of Finding and Recommendation.

OSHA reviews its Unliquidated Obligation Report in a timely manner. As a result of the
upcoming implementation of NCFMS, OSHA financial staff has made increased efforts
to review the balances so only relevant data will be migrated. The UDOs in question
have been reviewed and deobligated as appropriate, after it was confirmed that there
are no outstanding invoices.

Regarding the sample item for a $50 training authorization, the documentation required
to support the validity of the UDO balance was delayed due to the vendor having moved
and changing accounting systems. This documentation has now been received, and
this training authorization is no longer open.

OWCP Response

The recommendation is too broadly stated. The finding has to do with one UDO while
the recommendation implies a deficiency for all OWCP accounting transactions and
balances. A recommendation that more accurately goes to the finding would specifically
address documentation of UDOs. However, OWCP will issue guidance to reinforce the
policies and procedures for the documentation of the validity of UDOs.




                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      32                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

OCFO Response

Division of Client Accounting Services (DCAS)

OCFO/DCAS does not concur with this audit finding. There appears to be some
confusion between the Detail Fund Report (D253) process, which is the responsibility of
the OASAM budget office; and the unliquidated obligation report process, which is
performed by OCFO/DCAS for our DM client agencies. The current quarterly
unliquidated obligation review procedures OCFO/DCAS has in place were carried over
from our former OASAM/OFMO organizational set up. The current unliquidated
obligation procedures OCFO/DCAS follows were not applied throughout the Department
but to DM client agencies only. OCFO/DCAS forwarded a copy of the Unliquidated
Obligation report dated July 2, 2009, to our DM clients for obligation review. The report
and an email detailing review requirements and de-obligation requirements was sent out
to all DM client agencies on July 9, 2009. OCFO/DCAS also sent two reminder
follow-up email correspondence to our DM client agencies on August 7, 2009, and
September 8, 2009. OCFO/DCAS consistently provides our DM clients with appropriate
tools to perform a thorough review of their unliquidated obligations each quarter and to
take appropriate action when necessary to de-obligate unliquidated balances in a timely
manner.

A copy of the September 30, 2009, unliquidated obligation report for the 4th quarter of
FY 2009 was forwarded to the DM client agencies on November 9, 2009, for their
review and action. We also forwarded our standard email correspondence, which
included review procedures and also alerting our clients of their responsibility to clear
unliquidated obligations.

Division of Financial Reporting (DFR)

In FY 2010, on a quarterly basis, the Division of Financial Reporting will request from
the Agencies the results of their quarterly reviews of UDOs and monitor the
de-obligation of unliquidated balances.

Auditors’ Response

The recommendations for ETA, BLS, and OWCP are considered resolved and open.
Although OSHA and OCFO/DCAS stated that they do not concur with the
characterization of our comments, the OCFO/DFR has taken steps to address our
recommendations. Therefore, these recommendations are also considered resolved
and open. FY 2010 audit procedures will determine whether these recommendations
have been adequately addressed and can be considered closed.




                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       33                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

11. Statement of Differences Reconciliation Process

Based on our testwork over the OASAM and OCFO Statement of Differences (FMS-
6652) reconciliations over disbursements and deposits for the months of October 2008
and March 2009, we noted the following:

• For Agency Location Code (ALC) 16012014, the OCFO’s October 2008 reconciliation
  document did not provide evidence of when the reviewer or supervisor reviewed the
  reconciliation for completeness, accuracy, and timeliness of preparation.

• For ALC 16012004, we noted the following issues with OASAM’s Region IV October
  2008 and March 2009 FMS-6652 reconciliations: (1) documentation to substantiate
  the performance of the FMS-6652 reconciliation was not provided in a timely manner
  (requested on June 5, 2009 and received on August 19, 2009) and (2) appropriate
  evidence to substantiate that someone other than the preparer reviewed the March
  FMS-6652 reconciliations for timeliness, accuracy, and completeness was not
  provided.

•   For ALCs 16012006 and 16012009, we noted the following issues with OASAM’s
    Region IX October 2008 FMS-6652 reconciliations: (1) support for the individual
    transactions that reconcile to the total net difference as of October 2008 were not
    provided; (2) the causes and subsequent corrective actions initiated for each
    individual transaction were not provided; and (3) the reconciliations were not
    performed in a timely manner.

The OCFO supervisor or reviewer did not document the date when he or she reviewed
the reconciliation for timeliness, accuracy, and completeness. The OASAM exceptions
occurred because the Region IV and IX accountants did not review and research the
FMS-6652 report for deposits and disbursement on a monthly basis. In addition,
OASAM management did not communicate to the Region IV and IX district offices the
procedures to perform and document the FMS 6652 reconciliation and supervisory
review. Thus, the accountant was not aware that differences existed during the month
sampled until documentation was requested by the auditor. In addition, the OASAM
manager or supervisor did not evidence the review by signing and dating the
reconciliation upon completion of the review.

Reconciliations that are not prepared according to Treasury guidelines, or are not
prepared at all, increase the potential risk that FBWT is misstated. In addition,
differences that are not resolved timely decrease management’s assurance that the
FBWT ending balance is reliable. Also, without documentation of supervisory review, no
evidence exists to support that an individual other than the preparer ensured that:
(1) reconciliations were performed in a consistent and timely manner; (2) sufficient
documentation (i.e., physical or electronic) exists to substantiate the performance of the
FMS-6652 reconciliation and corrective actions; (3) complete reconciliations were
performed; and (4) differences were adequately researched and resolved.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        34                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


Treasury’s FBWT Reconciliation Procedures, A Supplement to the Treasury Financial
Manual, (TFM) Volume I, Part 2, Chapter 5100, November 1999 (Reconciliation
Procedures), states, “The procedures defined in this document provide step-by-step
instructions on reconciling the FBWT … These procedures pertain to Federal agencies
that must report receipt and disbursement activity to Treasury.” The Reconciliation
Procedures further state, “As stated in section V.A., Periodic Review and Evaluation,
Federal agencies must reconcile the SGL 1010 account and any related subaccounts
with the FMS 6652, 6653, 6654 and 6655 on a monthly basis (at minimum).” As stated
in section V.B., Differences, “Federal agencies must research and resolve monthly
FMS-6652.”

The Reconciliation Procedures also states that…“each financial system’s policies and
procedures should provide: (1) regular and routine reconciliation of G/L accounts;
(2) thorough investigation of differences; (3) determination of specific causes of
differences; and (4) initiation of corrective action. This includes having the ability to
schedule coordinate cutoffs and systematically produce a trial balance of the G/L.
These activities must be scheduled and conducted to facilitate rather than impede the
reconciliation process.”

In addition, TFM Chapter 5100, Section 5135, Background, states, “Agencies should
document their reconciliations and make them available to agency management,
auditors and Treasury, if requested.” Section 5130.30 also states, “Treasury notifies
agencies by letter and/or a monthly Statement of Differences (SOD) report when there
are differences in reported amounts. Agencies must investigate all Treasury-reported
differences. They must initiate and/or report any necessary adjustments to their FBWT
account and/or Treasury account symbol. Agencies must reconcile these differences
monthly.”

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.”

Recommendations

We recommend that:

1. The Assistant Secretary for Administration and Management ensure that staff
   implement existing procedures to ensure FMS-6652 reconciliations are being
   performed timely.

2. The Assistant Secretary for Administration and Management and the Acting Deputy
   Chief Financial Officer ensure that staff implement existing procedures that require

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       35                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

   the preparation and retention of supporting documentation evidencing timely
   completion and supervisory review of the FMS-6652 reconciliations, in order to
   substantiate that reconciliations were performed properly and that they were
   reviewed by personnel other than the preparer.

Management’s Response

OASAM-San Francisco Response

We are undertaking an overhaul of our Statement of Difference (FMS-6652) processes.
We will be taking swift action to implement the recommendations provided by the KPMG
auditors. Our implementation plan will be four-fold: (1) Process documentation; (2) File
management; (3) Staff training; (4) Supervisory review and sign-off of the monthly 224
report.

Implementation Plan

SF-224 Process Documentation-Completion Date: August 27, 2009

Attached is a flow chart of the 224 reconciliation process that we will be following. This
flow chart will ensure that all finance staff have a clear picture of the process that they
must follow.

File Management-Completion Date: September 30, 2009

The existing file management system in OASAM San Francisco will be reviewed to
ensure that the document filing methodology is reflective of an accountable process.

Training-Completion Date: December 2, 2009

We are sending key financial staff to training offered by the US Treasury’s Financial
Management Service (FMS). The training will cover the following topics: Terms and
concepts, Deposits and disbursements process used by most Federal Agencies,
Submission deadlines Reporting by federal accounts (receipts, expenditure, and
suspense), Document preparation (by sections/by line), Making corrective entries,
Collection, disbursement and check cancellation source documents used to prepare the
report (FMS 215, 5515, 1166, OPAC, 145) Spotting “red flags” and edit checks in
reporting.

Supervisory Review and Sign-off Completion Date: August 31, 2009

As recommended in the NFR, we will begin ensuring that all monthly reconciliation
reports are reviewed and signed/dated by the Supervisory Accountant or other higher
level official.


                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        36                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

We believe that the implementation of the stronger accounting practice combined with
additional training and improved file management practices will bring all future 224
reconciliation into compliance with existing audit standards.

OASAM-Atlanta Response

For ALC 16012004, the two findings were (1) documentation to substantiate the
performance of the FMS-6652 reconciliation was not provided in a timely manner
(requested on June 5, 2009, and received on August 19, 2009); and (2) appropriate
evidence to substantiate that someone other than the preparer review the March FMS-
6652 reconciliations for timeliness, accuracy, and completeness was not provided.

The issue of timeliness was addressed previously with OCFO. There was confusion
with the KPMG auditors in clarifying what information was being requested. Region IV
responded to the original request and KPMG did not respond until August 12, 2009, that
incorrect information was provided. On August 16, 2009, Region IV provided all
requested information to the audit team. Thus, Region IV does not fully concur with this
finding but will work in the future with the audit team to ensure all requests are
understood and responded to accurately and timely.

The issue of Managerial review: Region IV concurs with the finding and agrees to
implement existing procedures that require retention of supporting documentation
evidencing timely completion and supervisory review of the FMS-6652 reconciliations, in
order to substantiate that reconciliations were prepared properly and that they were
reviewed by personnel other than the preparer.

Implementation of KPMG recommendation:

Effective immediately, beginning with the August 2009 Statement of Differences
Reconciliation, Region IV has established a central file to retain documentation support
of the Statement of Differences Reconciliation process.

Effective with the August 2009 accounting period, the Regional Finance Officer will sign
the Statement of Difference as the Reviewer.

OCFO-DCAS Response

OCFO’s standard reconciliation procedure is to download the month-end statement of
differences on the first date available after final posting to Treasury, then compare the
final balances to the Log that we use for reconciliation purposes with Treasury reports.
This procedure very rarely results in any discrepancies being found because the SF-224
data is reconciled on a daily basis. Evidence was provided for the October 2008
reconciliation with the approval signature of the supervisor. Neither the TFM 2, 5100 nor
the supplemental to TFM volume 1 (November 1999) require evidence of exactly when
management reviews the reconciliation report. Nevertheless, a review process has

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       37                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

been implemented, which requires the preparation and retention of supporting
documentation evidencing timely completion and supervisory review of the
reconciliation.

Auditors’ Response

The recommendations for OASAM and OCFO/DFAS are considered resolved and
open. Although OASAM-Atlanta stated that it does not fully concur with the
characterization of our comment, OASAM-Atlanta has taken steps to address our
recommendation. Therefore, this recommendation is also considered resolved and
open. FY 2010 audit procedures will determine whether these recommendations have
been adequately addressed and can be considered closed.

12. Other Fund Balance with Treasury Reconciliations

Based on our testwork over the OCFO’s quarterly FBWT reconciliation for the quarter
ended December 31, 2008, we noted that the OCFO’s reconciliation document did not
contain evidence that a separate person other than the preparer reviewed the
reconciliation for timeliness, accuracy, and completeness. According to OCFO
management, the supervisory review process for this reconciliation did not require a
positive confirmation by the reviewer. Only if issues were identified by the reviewer, the
reconciliation would be sent back to the preparer for correction.

In addition, we noted that the preparation of the monthly Government Wide Account
Statement (GWA) Expenditure Activity reconciliation for the month of October was not
performed timely. According to the OCFO, this reconciliation was not prepared timely
because of more pressing priorities related to year-end reporting.

Without documentation of supervisory review, no evidence exists to support that an
individual other than the preparer ensured that: (1) reconciliations were performed in a
consistent and timely manner; (2) sufficient documentation (i.e., physical or electronic)
exists to substantiate the performance of the quarterly FBWT reconciliation and related
corrective actions; (3) complete reconciliations were performed; and (4) differences
were adequately researched and resolved. In addition, if reconciliations are not
prepared and reviewed timely, there is an increased potential risk that the period-end of
FBWT is misstated.

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews […] and the creation and
maintenance of related records which provide evidence of execution of these activities
as well as appropriate documentation. Control activities may be applied in a
computerized information system environment or through manual processes.”



                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        38                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

In addition, TFM Chapter 5100 states, “The procedures defined in this document
provide step-by-step instructions on reconciling the FBWT…. These procedures pertain
to Federal agencies that must report receipt and disbursement activity to Treasury.”
The Reconciliation Procedures further states, “As stated in section V. A. Periodic
Review and Evaluation, Federal agencies must reconcile their SGL 1010 account and
any related subaccounts with the FMS 6652 and GWA Expenditure and Receipts
reports on a monthly basis (at minimum).”

Recommendations

We recommend that the Acting Deputy Chief Financial Officer:

1. Develop and implement procedures to retain supporting documentation evidencing
   supervisory review of the quarterly FBWT reconciliation, whether in electronic or
   hard copy format, to substantiate the reviews performed by personnel other than the
   preparer.

2. Implement procedures to ensure that the monthly GWA Account Expenditure Activity
   reconciliation is performed timely (i.e., before the end of the subsequent month) and
   supporting documentation is retained evidencing the timely performance of the
   reconciliation, whether in electronic or hard copy format.

Management’s Response

The December 31, 2008 FBWT reconciliation was reviewed and approved by a
supervisor in mid January 2009, though the review and approval was not formally
documented. In general, FBWT reconciliations are reviewed and approved by a
supervisor and evidence of the review and approval is retained.

The October 2008 GWA Account Statement reconciliation was actually performed
before the end of subsequent month of November. However, due to efforts spent on
resolving some cash variances, as part of this reconciliation, as well as year-end
procedures with higher priorities that were being addressed during the same month, the
reconciliation was not finalized and reviewed until December 12, 2008. In general, all
monthly cash reconciliations are performed in a timely manner, before the end of
subsequent month.

OCFO has implemented a GWA Reconciliation Schedule, which provides for the timely
reconciliation and for supervisory review and approval of the reconciliation. The new
procedures identify required dates for completing the reconciliation. For the months of
October, November, and December, the reconciliation will be completed, reviewed, and
approved on or before the 15th day of the second month following the reporting month.
For all other months, the reconciliation will be completed, reviewed, and approved on or
before the last day of the first month following the reporting month.


                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       39                  Report Number: 22-10-006-13-001
                                                                        Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                       Exhibit I

Auditors’ Response

These recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

13. Untimely Clearing of the Capital Asset Tracking and Reporting System Holding File

When an invoice is received for goods or services, the invoice is entered into DOLAR$,
using an accounting string, known as a footprint. This footprint consists of an object
class code (OCC) which serves as an indicator to DOLAR$ to expense or capitalize the
transaction. Transactions relating to an OCC indicating capitalization are then
transferred to a holding file to be reviewed by the capitalized asset management officer
(CAMO). The purpose of the review is to validate whether the transaction was properly
capitalized and should be recorded in the property, plant, and equipment (PP&E)
subsidiary ledger or should have been expensed. This is a new control that was
implemented effective December 2008.

Each month, an accountant in the OCFO downloads a report of all the items that are in
the holding file at the end of the month. The accountant creates a summary of items in
the holding file for each agency. Each item is denoted as either being new or being
carried over from the prior month. The accountant then forwards this summary report to
the CAMO within each agency with a request to review and clear the items out of the
holding file. If the transaction was improperly capitalized, the CAMO requests OCFO’s
approval to expense it.

The Capital Asset Tracking and Reporting System (CATARS) is DOL’s PP&E subsidiary
ledger. CATARS is used to track all of the Department’s capitalized PP&E at the detail
level. During testwork over the March 31, 2009 monthly review and clearing of items in
the CATARS holding file, we noted that the ETA holding file had items carried forward
since December 2008 that had not yet been cleared. We further noted that ETA’s March
holding file items were all cleared in June 2009 subsequent to the completion of our
testwork.

The deficiency occurred because the OCFO does not have formal policies and
procedures documenting the agencies’ responsibility to review and clear items in the
holding file in a timely manner. Without timely review and clearance of the CATARS
holding files, PP&E and operating expenses reported in the year-end consolidated
financial statements could be misstated.

Per GAO’s Standards, “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.
This applies to the entire process or life cycle of a transaction or event from the initiation
and authorization through its final classification in summary records. In addition, control
activities help to ensure that all transactions are completely and accurately recorded.”
                                                              Management Advisory Comments
                                                        For the Year Ended September 30, 2009
                                         40                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


GAO’s Standards also states, “Control activities occur at all levels and functions of the
entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

Recommendations

We recommend that the Acting Deputy Chief Financial Officer:

1. Develop and implement formal policies and procedures requiring CAMOs to perform
   the review and clearing of CATARS holding file items timely (e.g., within 2 weeks
   after the end of the month). Documentation should be maintained to support these
   activities.

2. Monitor agencies’ compliance with the developed policies and procedures.

Management’s Response

KPMG recommends that the OCFO:

1. Develop and implement formal policies and procedures requiring CAMOs to perform
the review and clearing of CATARS holding file items (e.g., within 2 weeks after the end
of the month). Documentation should be maintained to support these activities.

OCFO has developed and implemented a policy and procedures requiring CAMOs to
perform the review and clearing of CATARS holding file items. The OCFO policy is
documented in a September 7, 2007, memorandum for Agency Administrative Officers
and Agency Financial Managers. The memorandum states:

   "As a reminder, CAMOs are asked to adhere to these policies and procedures: . . .

      ● Review and update the Holding File and the Construction-In-Progress (CIP)
        File on a weekly basis and daily in September."

An attachment to the memorandum also provides an Agency To-Do List. The first item
on the attachment is: "1. Clean CATARS Holding File and CIP file on a weekly basis."

The substance of the memorandum and the attachment had previously been discussed
and documentation provided to Agency CAMOs in February 2007 at training for Agency
CAMOs on policies and procedures for the CATARS system.



                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        41                  Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

Regarding documentation in support of these activities, on a monthly basis, the
Accountant in the Financial Reports Division prepares an Agency Holding File Analysis
spreadsheet based on the monthly CATARS Holding File Report in order to monitor
Agencies' Holding File activity and e-mails the analysis to Agency CAMOs.

To clear the Holding File items, the CAMO will request a copy of the PO and invoice
from Agency’s APO or research the DOLAR$ entry to determine if it was miscoded. In
response to OCFO’s e-mail request, CAMOs will respond via e-mail or phone. OCFO
has ensured that CAMOs understand the importance of clearing the Holding File on a
timely basis.

Copies of the Agency Holding File Analysis reports and Agency e-mail responses have
been provided to KPMG. OCFO will continue to monitor Agency Holding File activities,
provide needed assistance and keep close contact with the CAMOs.

KPMG also recommends that OCFO monitor agencies' compliance with the developed
policies and procedures. OCFO believes that the use of the Agency Holding File
Analysis reports and monthly contacts and follow-up with the CAMOs is an appropriate
method of monitoring Agencies' compliance with the policies and procedures requiring
CAMOs to review and update the Holding File and the CIP File on a weekly basis and
daily in September. For example, we believe that the ETA items outstanding in the
Holding File as of March 31, 2009, were cleared by June 30, 2009, because of the
OCFO follow-up via e-mail and telephone calls. Furthermore, OCFO maintains
documentation regarding Agencies' progress in clearing the Holding File and
documentation is available for the auditor's review. Nevertheless, OCFO will enhance
our monitoring efforts.

Auditors’ Response

Although the OCFO stated that it does not concur with the characterization of our
comments, the OCFO has taken steps to address our recommendations. Therefore,
these recommendations are considered resolved and open. FY 2010 audit procedures
will determine whether these recommendations have been adequately addressed and
can be considered closed.

14. Property, Plant, and Equipment Additions

During our testwork over a sample of 41 PP&E additions as of May 31, 2009, we noted
the following:

•   For 4 sample items related to internal use software in development, costs in the
    amount of $3 million were capitalized when DOL paid the vendors’ invoices in
    FY 2009 and not when costs were incurred and services were provided in FY 2008.



                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      42                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

•   For 1 sample item related to construction in progress (CIP), no documentation was
    provided to support the capitalized cost of $8 thousand.

BLS and OSHA accounting practice is to capitalize costs incurred related to internal use
software in development when the invoices are paid, not when the services are
provided and cost is incurred. This practice was not in accordance with SFFAS No. 6,
Accounting for Property, Plant, and Equipment, and SFFAS No. 10, Accounting for
Internal Use Software and resulted in the $3 million understatement of FY 2009
beginning PP&E balances and FY 2009 expenses. In addition, OCFO prepared an
analysis in FY 2009 and noted that PP&E balances as of September 30, 2009 were
understated by $367 thousand as a result of the issue noted above. Also, DOL’s
capitalized cost related to the noted CIP item is not adequately supported and PP&E
could be overstated by $8 thousand as a result.

Not recording capitalized cost in accordance with SFFAS No. 6 and SFFAS No. 10,
increases the risk that misstatements of PP&E could be included in DOL’s consolidated
financial statements.

SFFAS No. 10, paragraph 15, states that, “Entities should capitalize the cost of software
when such software meets the criteria for general property, plant, and equipment
(PP&E). General PP&E is any property, plant, and equipment used in providing goods
and services.”

Also, SFFAS No. 6, paragraph 34, states that, “PP&E shall be recognized when title
passes to the acquiring entity or when the PP&E is delivered to the entity or to an agent
of the entity. In the case of constructed PP&E, the PP&E shall be recorded as
construction work in process until it is placed in service, at which time the balance shall
be transferred to general PP&E.”

GAO’s Standards states that, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

GAO’s Standards also states that, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

Furthermore, the Code of Federal Regulations, Title 29 section 97.36 (i) (10), requires
access to the Comptroller General of the United States, or any of their duly authorized

                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        43                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

representatives to any books, documents, papers, and records of the contractor which
are directly pertinent to that specific contract for the purpose of making audit,
examination, excerpts, and transcriptions. Retention of all required records is to be
made for three years after final payments are made and all other pending matters are
closed.

Recommendations

We recommend that:

1. The Commissioner for the Bureau of Labor Statistics and the Acting Assistant
   Secretary for the Office of Safety and Health Administration develop and implement
   procedures to properly record capitalized costs in accordance with SFFAS No. 6 and
   No.10.

2. The Acting Deputy Chief Financial Officer develop and implement procedures to
   monitor all DOL agencies’ compliance with SFFAS No.6 and No.10.

3. The Assistant Secretary for Administration and Management ensure that the staff in
   OASAM maintain a complete set of supporting documentation for each transaction
   and that the supporting documentation is readily available for examination.

Management’s Response

BLS Response

BLS concurs with the recommendation and has taken corrective action to revise and
implement its procedures to record costs as construction-in-progress when services are
provided or costs are incurred.

OSHA Response

OSHA disagrees with the recommendation. However, based on Departmental policy,
the Agency will agree to change the current procedure to record
construction-in-progress when services are provided or costs are incurred.

OCFO Response

While OCFO has developed and implemented multiple procedures to monitor agencies'
compliance with SFFAS No. 6 and No. 10 regarding capitalization of and supporting
documentation for PP&E additions, we agree that improvement is needed. Therefore, in
FY 2010, we will revise our procedures as well as enhance our monitoring efforts. In
addition, OCFO will continue to provide training and memoranda to help ensure
Agencies' compliance with the capitalization and documentation requirements for PP&E
additions.

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      44                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I


OCFO also concurs with the third recommendation. Management will implement
procedures to ensure that a complete set of appropriate supporting documentation is
obtained and maintained on file in the Division of Client Accounting Services (DCAS)
office for relevant PP & E transactions.

Auditors’ Response

The recommendations for BLS and OSHA are considered resolved and open.
Although OSHA stated that they do not concur with the characterization of our
comments, OSHA and the OCFO have taken steps to address our recommendations.
Therefore, these recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

15. Construction In Progress Transfers

During our testwork over transfers from CIP to the buildings asset account as of June
30, 2009, we noted that 6 of the 6 transfers selected for testing were not recorded
timely. Therefore, depreciation did not begin in the month of substantial completion.

In addition, during our testwork over the September 30, 2009 CIP balances, we noted
that the Red Rock and Potomac Job Corps facilities were substantially completed in
July 2009 but were still reported in CIP at year-end. These projects should have been
transferred to the buildings account upon substantial completion to begin depreciation.

The above instances occurred because OJC does not have policies and procedures in
place to:

•   Receive and/or review Certifications of Substantial           Completion     from    the
    architect/engineer and construction contractor timely.

•   Require the CAMO to enter the asset into DOLAR$ and CATARS using the date the
    asset has been deemed substantially complete as the depreciation start date.

•   Review CIP balances periodically to determine whether items should be transferred
    to a depreciable asset account.

The untimely transfers identified during our June 30, 2009 testing resulted in an
understatement of depreciation expense and accumulated depreciation of $149
thousand, which was not corrected, as of September 30, 2009.

The errors identified during our testing over the September 30, 2009 CIP balances
resulted in an overstatement of CIP and an understatement of the buildings asset
account in the amount of $21 million as of September 30, 2009. It also resulted in an

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                         45                Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

understatement of depreciation expense and accumulated depreciation of $137
thousand as of September 30, 2009. These errors were not corrected in the FY 2009
consolidated financial statements.

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states,
“Transactions should be promptly recorded, properly classified, and accounted for in
order to prepare timely accounts and reliable financial and other reports.”

Per the Job Corps Standard Operating Procedures for Capitalized Asset Tracking and
Reporting System, “Items are transferred out of the CIP holding file to either assets or a
responsible agency outside of DOL when the Office of Job Corps receives a properly
completed and signed DL 1-55c and Substantial Completion (SC) Information Summary
from a Job Corps center engineer. Those items which are transferred out of CIP status
to assets will begin to accumulate depreciation when the transfer has been completed in
CATARS.”

SFFAS No. 6 states, “PP&E shall be recognized when title passes to the acquiring
entity or when the PP&E is delivered to the entity or to an agent of the entity. In the case
of constructed PP&E, the PP&E shall be recorded as construction work in process until
it is placed in service, at which time the balance shall be transferred to general PP&E.”

Recommendations

We recommend that the Interim National Director for the Office of Job Corps implement
policies and procedures requiring:

1. All parties reviewing the substantial completion document to complete their review
   within a specified timeframe (e.g., within 5 business days of receiving the
   document).

2. The CAMO entering the asset into CATARS and DOLAR$ to use the date of
   substantial completion as the depreciation start date.

3. The periodic review of CIP balances to identify any items that should be transferred
   to a depreciable asset account. This review should be documented.




                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        46                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

Management’s Response

The Office of Job Corps concurs with the recommendation and will ensure that all
parties reviewing the substantial completion documentation complete the review within
five (5) business days of receipt of all documentation, the assets are properly entered
into the New Core Financial Management System utilizing the date of substantial
completion as the depreciation state date, and engage in a quarterly periodic review of
CIP balances so as to identify items which can be transferred to a depreciable asset
account. All reviews will be properly documented.

Auditors’ Response

These recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

16. Review of Software in Development Balances

The Accountable Property Officer (APO), CAMO, and IT Project Manager work
collaboratively to prepare a quarterly Certification for Internal-Use Software Projects
under Development (Certification). This Certification discloses the project name, the
current year costs expensed and capitalized, and the software implementation date.
The agencies are required to provide sufficient documentation to support the capitalized
costs. Management within each agency reviews the Certifications to determine if all
costs associated with the software in development were properly expensed or
accumulated in the construction in progress module. A senior accountant in the OCFO
collects the Certifications from each agency. The senior accountant reviews the
Certifications for completeness and reconciles the capitalized costs from CATARS to
DOLAR$. The OCFO informs the appropriate CAMO of any discrepancies noted so that
the CAMO can record an adjusting entry to reclassify the costs.

During our testing over software in development balances at September 30, 2009, we
noted that 3 of 13 items tested were improperly classified as software in development.
One item related to maintenance on a system that was already in use, another project
(SCSEP Phase 7) was no longer expected to be put into use, and one balance was
designated as “removed.” The latter balance was deemed to not be capitalizable by the
CAMO and was to be expensed; however, this balance was not removed from software
in development as of September 30, 2009.

The above exceptions occurred because the Certification is only required for software
projects that have current year costs, and the OCFO does not have follow-up
procedures in place to ensure that all prior year costs reported in software in
development are properly classified.




                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       47                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Because of the three exceptions noted above, software in development was overstated
and expenses were understated by $2.7 million as of September 30, 2009. These errors
were not corrected in the FY 2009 consolidated financial statements.

GAO’s Standards states that, “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.”

GAO’s Standards also states that, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

SFFAS No. 10, states that, “For each module or component of a software project,
amortization should begin when that module or component has been successfully
tested. If the use of a module is dependent on completion of another module(s), the
amortization of that module should begin when both that module and the other
module(s) have successfully completed testing.” It also states, “In instances where the
managers of a federal entity conclude that it is no longer more likely than not that
developmental software (or a module thereof) will be completed and placed in service,
the related book value accumulated for the software (or the balance in a work in
process account, if applicable) should be reduced to reflect the expected NRV, if any,
and the loss recognized.” Lastly, SFFAS No. 10 states, “Costs incurred after final
acceptance testing has been successfully completed should be expensed.”

Recommendation

We recommend that the Acting Deputy Chief Financial Officer enhance the Certification
process by having agencies certify that software costs incurred in prior years continue
to be valid capitalized costs for projects still in development or that those costs should
be removed from software in development.

Management’s Response

The OCFO does not concur with the recommendation. The OCFO believes that
sufficient policies and procedures have been implemented to ensure that projects
reported in software in development are properly classified. Nevertheless, the OCFO
will more closely monitor the certification process.



                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        48                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

On March 6, 2009, the OCFO issued policies, procedures and guidance to Agencies for
capitalizing and reporting the costs of internal use software in development. Section
3.2.1.3 of the procedures state that when a “… CAMO finds an item in the CATARS
holding file that should not be treated as a capitalized cost, then the CAMO must ensure
that a correction is made in DOLAR$, so that the cost is treated as an expense and not
capitalized as an asset. After the correction is made in DOLAR$, the correction will be
transmitted to CATARS, and the negative amount will appear to offset the positive
amount in the CATARS holding file.”

The items referred to in the finding are not material and are deemed to be isolated
instances.

The 18 line items, totaling $1,608,827, had been identified by the OASAM CAMO as
costs no longer capitalizable and had been referred to the OCFO Financial Reporting
Division for research and review. The approval to remove the items from the CIP
database was given on November 3, 2009. The CAMO took immediate action to
remove the items from the CIP database on November 3, 2009.

The two ETA projects, with capitalized costs totaling $961,495, had been identified as
software in development when the related costs were capitalized and transferred to CIP.
In FY 2009, the funding for one of the projects was suspended and the project was
abandoned. In the other case, the project manager subsequently determined that the
capitalized costs did not qualify as enhancements to an existing system. The capitalized
costs for both projects will be reversed as soon as the new core financial system is fully
operational.

Auditors’ Response

Although the OCFO stated that it does not concur with the characterization of our
comment, the OCFO has taken steps to address our recommendation. Therefore, this
recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

17. Property, Plant, and Equipment Disposals

During our testwork over asset disposals as of September 30, 2009, we noted that a
Capitalized Asset Management System (CAMS) Transaction Form/Survey Report (DL
1-55C) was not completed for 2 of the 11 disposals tested to support that they had been
properly authorized.

The OJC did not have a review process in place to verify the appropriate authorization
of asset disposals after the CAMO entered them into CATARS and DOLAR$.
Unauthorized disposals may result in a misstatement of PP&E and/or misappropriation
of assets.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        49                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I


GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

The Accountable Property Officer (APO) Handbook states, “Submission of DL 1-55C –
CATARS Transaction Form/Survey Report, Purchase Order and Invoices to CAMO.
APOs are responsible for completing the DL 1-55C and submitting it to the CAMO to
document the: (1) acquisition (2) transfer (3) retirement and disposal of capitalized
assets.”

Recommendation

We recommend that the Interim National Director of the Office of Job Corps implement
policies and procedures to perform a periodic review of asset disposals recorded during
the fiscal year to ensure they are properly authorized.

Management’s Response

Job Corps agrees with the recommendation. The Interim National Director of the Office
of Job Corps will implement policies and procedures to perform a periodic review of
asset disposals recorded during the fiscal year to ensure they are properly authorized.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

18. Improvements Needed in Property, Plant, and Equipment Reconciliation Controls

To ensure that PP&E activities reported in DOLAR$ and CATARS are complete and
accurate, the DOL agencies, including the OCFO, perform the following two
reconciliations:

•   The CAMO for each agency reconciles the ending PP&E balances reported in
    CATARS to the ending PP&E balances reported in DOLAR$ on a quarterly basis.
    The CAMOs send the prepared reconciliation to an accountant in the OCFO Office
    of Fiscal Integrity (OFI). The OCFO accountant compares the reconciliation
    prepared by the DOL agencies to a reconciliation she prepared independently for
    accuracy. The OCFO accountant compiles each agency’s reconciliation into a
    “CATARS Reconciliation Report” to show the reconciliation between each general

                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        50                   Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

    ledger account by agency. This reconciliation is reviewed by the Acting Director, OFI
    – OCFO.

•   In addition, the OCFO performs a reconciliation of CATARS to DOLAR$ for each
    IAC by fiscal year on a quarterly basis during the preparation of the PP&E
    rollforward. This rollforward and reconciliation are also reviewed by the Acting
    Director, OFI – OCFO.

During our testwork over the December 31, 2008 PP&E reconciliation of CATARS to
DOLAR$, we noted the following:

•   The “CATARS Reconciliation Report” did not include a reconciliation of PP&E for the
    OJC, which accounts for approximately 87% of the PP&E balance. In addition, no
    detail explanation was documented for differences identified.

•   The OCFO staff did not prepare the December 31, 2008 quarterly reconciliation by
    IAC in a timely manner. The quarterly reconciliation was not prepared until April
    2009.

These issues were caused because the OCFO accountant responsible for compiling the
agency quarterly reconciliations did not receive the reconciliation from OJC. Although
the OCFO accountant performs an independent reconciliation by agency, the OCFO
accountant was not able to verify the data without receipt of the reconciliation from OJC;
therefore, the OCFO accountant did not include this information in the “CATARS
Reconciliation Report.” Further, the OCFO delayed the completion of the quarterly
reconciliation by IAC because the OCFO staff was in the process of transferring the
financial activity related to OJC to a new IAC. Existing documented policies and
procedures do not require that this reconciliation be completed by a certain time.

Without timely and adequate reconciliation between DOLAR$ and CATARS, the PP&E
balance reported in the consolidated financial statements could be misstated.

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

In addition, per the Memorandum for Agency Administrative Officers, “Management of
Capitalized Assets,” dated February 22, 2007, the OCFO “request(s) agencies to
complete a quarterly review and reconciliation between CATARS and the DOLAR$
general ledger. A copy of the CATARS/DOLAR$ reconciliation should be emailed
to…OFI within 10 work days following the end of the quarter.”


                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        51                   Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

Recommendations

We recommend that the Acting Deputy Chief Financial Officer:

1. Reinforce policies and procedures requiring all agencies to provide completed
   CATARS to DOLAR$ reconciliations to the OCFO within 10 work days following the
   end of the quarter, including explanation of the identified reconciling items.

2. Amend the existing documented policies and procedures to include procedures that
   require the OCFO staff to complete the quarterly DOLAR$ to CATARS reconciliation
   by IAC timely.

Management’s Response

Management does not concur with the statement of condition, and therefore believes
that the recommendations are not warranted.

The majority of DOL agencies complete the CATARS and DOLAR$ reconciliations
within the required ten10 days of the end of each quarter, with the exception of ETA and
Job Corps. These reconciliations are normally completed later because they are
prepared at a more detailed level and consequently take much longer to perform.

OCFO staff did include the Job Corps balances in the December 31, 2008,
reconciliation, which was completed by January 20, 2009. However, the Job Corps
balances were not verified against the detail reconciliation, which was completed on
February 4, 2009. There were no differences between the OCFO reconciliation and
detail reconciliation.

The CATARS Reconciliation Report is no longer used, it has been replaced by the
monthly DOLAR$ to CATARS Rollforward Reconciliation. OCFO is in the process of
designing new procedures, which will include a timeframe for completing the
reconciliation.

Auditors’ Response

Although the OCFO stated that it does not concur with the characterization of our
comments, the OCFO has taken steps to address our recommendations. Therefore,
these recommendations are considered resolved and open. FY 2010 audit procedures
will determine whether these recommendations have been adequately addressed and
can be considered closed.

19. Periodic Accountability Reviews

The OWCP conducts Accountability Reviews at the various DOL District Offices
annually. The purpose of the reviews is to ensure that the District Offices are in

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       52                  Report Number: 22-10-006-13-001
                                                                       Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                      Exhibit I

compliance with the Division of Federal Employees Compensation Program’s
Procedure Manual (The Manual). During our audit, we noted that the Accountability
Review report summarizing the results of the review conducted in the San Francisco
District Office during the period from February 2, 2009 through February 6, 2009 was
not approved by the ESA National Office until June 2009.

The National Office did not complete its review of the report within the required 30 days
because of the time it took to conclude on the findings with the District Office and for the
District Office to submit its corrective action plan to address the findings identified.

Not completing the review within 30 days resulted in noncompliance with section 4-
0300-7 of the Manual, which states, “The review team, district office, and regional and
National Office management complete all post-review activities within 30 days of the
close-out conference, including developing corrective action plans if this was not done
during the course of the review. If agreement has been reached with the regional
director during the post close-out meeting […] on proposed corrective actions, there is
no need for further action on the part of the team leader. The district office manager and
regional director complete and submit Form AR-10 (Corrective Action Progress Report:
Exhibit 2) as required (see the Manual, Chapter 4-400, Quarterly Review & Analysis).
All the information needed to complete the form is available in the Accountability Review
report.”

Recommendation

We recommend that the Director of the Office of Workers’ Compensation Programs
implement procedures to ensure that the review of all Accountability Review reports is
completed in accordance with the Manual.

Management’s Response

The Office of Workers’ Compensation Programs will review the factors affecting the
timeliness for approval of Accountability Review Reports and update the Procedure
Manual as appropriate. The Accountability Reviews are an important assessment of the
accuracy and quality of the programs. To maximize the utility of the Accountability
Reviews, it is important that the process provide both adequate and timely information.
We have substantially revamped the FECA accountability review process for FY 2010,
to include a much more comprehensive process for identifying and following up on
corrective actions. The new process will review all 12 district offices each year on a
subset of the evaluation indicators, thereby allowing for corrective action plans at the
national as well as district office levels.




                                                             Management Advisory Comments
                                                       For the Year Ended September 30, 2009
                                        53                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

20. Controls over the Integrated Federal Employees Compensation System

For the period of October 1, 2008 through March 31, 2009, we tested a sample of 123
claimaints and noted the following exceptions:
•   For 4 of 123 files tested, we noted that there was no current medical evidence on
    file.

•   For 3 of 123 files tested, we noted that there was no current CA-1032, Request for
    Information on Earnings, Dual Benefits, Dependents and Third Party Settlements, or
    CA-12, Claim for Continuation of Compensation, informing the Claims Examiner
    (CE) of the claimant’s current earnings, dependent status, or third party settlements
    on file.

•   For 3 of 123 files tested, we noted that the compensation rate reflected in the
    Integrated Federal Employees Compensation System (iFECS) did not accurately
    reflect the information in the claimant’s most current CA-1032 with respect to
    dependent status. For one of the 3 exceptions noted, the CE made an incorrect
    change in iFECS in April 2009.

The above instances occurred because the CEs did not perform a sufficient, detailed,
and timely review of the claimants’ files identified above to ensure that the medical
evidence, CA-1032, and CA-12 forms on file were current and that the compensation
rate used was accurate.

The exceptions related to lack of medical evidence and lack of current CA-1032s and
CA-12s resulted in non-compliance with the Manual, and could result in an
overstatement of benefit expense. The exceptions related to the use of an incorrect
compensation rate resulted in an overstatement of FY 2009 benefit expense of $1,481
as of March 31, 2009.

Section 2-0812-7 of the Manual states, “All cases require completion of Form CA-1032
on a yearly basis and completion of Form CA-1036 each three years. Medical reviews
should be accomplished in accordance with the case status ….”

Also, Section 2-0812-11 of the Manual states, “Information received in response to
requests for information on earnings and dependents may require the CE to adjust the
compensation rate, and the claimant’s failure to supply requested information may result
in suspension or forfeiture of compensation.” Additionally, Section 2-0812-11-b, states
that, “Entitlement to augmented compensation may be suspended (i.e., compensation
                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       54                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

may be reduced from 3/4 to 2/3) if the Office does not receive a timely response to a
request for information concerning eligible dependents.”

Furthermore, GAO’s Standards states, “Control activities occur at all levels and
functions of the entity. They include a wide range of diverse activities such as
approvals, authorizations, verifications, reconciliations, performance reviews,
maintenance of security, and the creation and maintenance of related records which
provide evidence of execution of these activities as well as appropriate documentation.
Control activities may be applied in a computerized information system environment or
through manual processes.”

Recommendation

We recommend that the Director of the Office of Workers’ Compensation Programs
continue to stress the importance of CE compliance with the Manual related to timely
claim file review, follow-up on obtaining the information supporting claimants’ continuing
eligibility (medical evidence and CA-1032 or CA-12), and updates to the claimants’ pay
rate based on the information provided in the CA-1032.

Management’s Response

Management concurs with the recommendation and will continue to stress the
importance of periodic case review to the claims examiner staff. The Program also feels
that the recently updated training modules will continue to improve claims performance
in this area. Lastly, any identified training needs will be promptly added to the current
materials if necessary.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

21. Improvements Needed in Controls over Fiscal Year-End Estimates Related to the
    Federal Employees’ Compensation Act

During our FY 2009 testwork over the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund, we noted the following related to the FECA accrued benefits and
FECA allowance for doubtful accounts receivable due from the public:

•   ESA estimates the fiscal year-end accrued benefit expense for the FECA
    supplemental and medical benefits due to claimants as the average of three rolls’
    payments (approximately 15 business days). However, ESA could not provide
    support of how the average of three rolls was determined or a look-back analysis to
    support the accuracy of the prior year’s estimate using this factor.

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        55                  Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I



•   ESA estimates the FECA allowance for doubtful accounts receivable due from the
    public as 50% of the outstanding accounts receivable balance. However, ESA could
    not provide support for the rate being used or a look-back analysis to support the
    accuracy of the estimate.

The lack of support for these estimates was due to the fact that the methodology for
these estimates was developed many years ago and management could not locate the
documents supporting the assumptions used. In addition, no policies and procedures
currently require ESA to perform a look-back analysis for fiscal year-end estimates.

Without controls in place to assess the accuracy of prior year’s estimates, the FECA
benefit expense and net accounts receivable reported at fiscal year-end could be
misstated.

GAO’s Standards states that “Internal control should generally be designed to assure
that ongoing monitoring occurs in the course of normal operations. It is performed
continually and is ingrained in the agency’s operations. It includes regular management
and supervisory activities, comparisons, reconciliations, and other actions people take
in performing their duties.”

Recommendation

We recommend that the Director of the Office of Workers’ Compensation Programs
revise existing policies and procedures to require management to develop and
implement a methodology for estimating the FECA year-end accrual and allowance for
doubtful accounts receivable that is supported by a documented analysis of historical
trends. This analysis should be updated annually to take into consideration actual
results and changes in the industry.

Management’s Response

Analysis of these processes undertaken at the end of the last audit cycle tended to
support the current methodology, as the preliminary figures closely matched the current
estimates. However, management concurs in that further support and documentation of
the estimates is needed. The Program will undertake to more formally document these
estimates and provide a detailed methodology by September 30, 2010.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.



                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                      56                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

22. Reconciliation of Child Agency Data Reported in the DOL Trial Balance

During our testing over the parent/child process in FY 2009, we noted the quarterly
reconciliation of the March 31, 2009 Civilian Conservation Centers (CCC) cost reports
(Forms 2110F) was not prepared in a timely manner. Although requested on June 1,
2009, we did not receive the reconciliation until August 12, 2009, and no evidence was
provided to indicate the actual date it was prepared.

In addition, the reconciliation was performed between the Forms 2110F and the child
agency trial balances rather than the Forms 2110F and the DOL trial balance.

The issues identified above occurred because during FY 2009 responsibilities of OCFO
contractors who had performed the reconciliation in FY 2008 changed. Therefore, OJC
ultimately performed the reconciliation. The untimely and inaccurate completion of the
March 31, 2009 reconciliation was a result of a lack of communication between the
OCFO and the OJC. In addition, neither OJC nor OCFO have formulated any formal
policies and procedures to perform the quarterly reconciliation.

Failure to reconcile child agency data reported in the DOL financial statements in a
timely manner may result in inaccurate financial reporting.

Per OMB Circular No. A-123, “the agency head must establish controls that reasonably
ensure that obligations and costs are in compliance with applicable law, funds, property,
and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation, and revenues and expenditures applicable to agency operations are
properly recorded and accounted for to permit the preparation of accounts and reliable
financial and statistical reports...”

OMB Circular No. A-123 further states, “Management is responsible for developing and
maintaining effective internal control. Effective internal control provides assurance that
significant weaknesses in the design or operation of internal control, that could
adversely affect the agency’s ability to meet its objectives, would be prevented or
detected in a timely manner.”

Furthermore, GAO’s Standards states, “Internal control should generally be designed to
assure that ongoing monitoring occurs in the course of normal operations. It is
performed continually and is ingrained in the agency’s operations. It includes regular
management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.”

Recommendations

We recommend that the Acting Deputy Chief Financial Officer and the Interim National
Director of Job Corps determine the appropriate personnel to perform the reconciliation
between the Forms 2110F and the child agency amounts reported in the DOL trial

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        57                  Report Number: 22-10-006-13-001
                                                                     Prepared by KPMG LLP
                                for the U.S. Department of Labor—Office of Inspector General
                                                                                    Exhibit I

balance. Once determined, we recommend that the appropriate office make the
following improvements to its internal control structure:

1. Formalize policies and procedures in writing related to the reconciliation of child
   agency data reported in the DOL trial balance to the Forms 2110F and ensure they
   are properly communicated to all appropriate individuals.

2. Require in the procedures that the reconciliation be completed and reviewed prior to
   the end of the subsequent quarter (e.g., the June 30 reconciliation should be
   completed before September 30).

3. Require in the procedures that a supervisor review the reconciliation for timeliness
   and accuracy. This review should be documented by the reviewer signing and dating
   the reconciliation.

Management’s Response

The Office of Job Corps concurs with the recommendation in part. We currently
reconcile all of the child agency’s cost data as represented on their 2110Fs. However,
as previously stated, the Office of Job Corps does not have an accounting office and
thus is incapable of reconciling to the trial balance. With the imminent transfer to the
Employment and Training Administration, which has a Department of Labor recognized
accounting office, this issue should be resolved. We have already been in contact with
ETA to begin the reconciliation process using the ETA accounting contractor. The Office
of Job Corps currently has procedures in place to assist in the reconciliation of child
agency data. Staff assigned to the Budget Office are fully cognizant of said procedures
and strictly adhere to them. We will incorporate into the formalized policies and
procedures that reconciliations (for the period ending June 30th) will be completed and
reviewed prior to September 30th. Our review procedure will incorporate the reviewer’s
signature and date of the review.

Since last year’s finding, the Office of Job Corps has worked closely with the Office of
the Chief Financial Officer to develop methods to insure the accurate reconciliation of
child agency data. We have also consulted with the child agency and reiterated the
need to have data submitted timely to the Office of Job Corps. We have provided
training and assistance to the child agency, which has resulted in the submission of
more timely and accurate financial data. We will continue to work closely with both the
Office of the Chief Financial Officer and the child agency to ensure timely and accurate
reconciliation.

Auditors’ Response

These recommendations are considered resolved and open. FY 2010 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

                                                           Management Advisory Comments
                                                     For the Year Ended September 30, 2009
                                       58                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I


23. Accounting for the State Unemployment Insurance and Employment Services
    Operations Activities

On a monthly basis, the UTF transfers funds to the State Unemployment Insurance and
Employment Services Operations (SUIESO) program. Typically, TAFS that receive
expenditure transfers from the UTF do not receive an annual appropriation and are fully
funded by receivables of expenditure transfers and actual collections. Under these
circumstances, these TAFS should not be recognizing the use of expended
appropriations for expenses incurred. However, certain transactions posted in DOLAR$
related to transfers erroneously impact expended and unexpended appropriations
balances. To ensure that these balances are correctly reported at fiscal year end, the
OCFO uses an internally-developed program to generate a manual journal entry to
reverse the erroneous components of the transfer entries.

During our FY 2009 testwork, we noted 5 of 15 TAFS tested where certain transactions
posted in DOLAR$ related to expenditure transfers erroneously impacted expended and
unexpended appropriations balances. However, the internally-developed program used
by the OCFO did not properly reverse the erroneous components of these transfer
entries.

OCFO supervisors did not identify this error since management considers the journal
entries related to this internally-developed program to be part of an automated process
that is not subject to the Department-wide policies and procedures that require manual
journal entries to be reviewed by a supervisor or someone other than the preparer
before they are posted to DOLAR$. As a result, the balances of expended
appropriations and unexpended appropriations at fiscal year-end were misstated by
approximately $51 million. We included this uncorrected audit difference in our
Summary of Audit Differences that was attached to the FY 2009 management
representation letter.

Per the 2009 USSGL Account Transactions, entry number A498, accounts 5700 and
3107 should not be impacted by the receipt of an expenditure transfer from a trust fund
to a general fund.

GAO’s Standards states, “Key duties and responsibilities need to be divided or
segregated among different people to reduce the risk of error or fraud. This should
include the responsibilities for authorizing transactions, processing and recording them,
reviewing the transactions, and handling any related assets. No one individual should
control all key aspects of a transaction or event.”

Recommendation

We recommend that the Acting Deputy Chief Financial Officer amend the current
Department-wide policies and procedures in place to require that all manual journal

                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       59                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

entries generated by internally-developed programs are reviewed and approved by a
supervisor or someone other than the preparer before they are posted to the general
ledger.

Management’s Response

As noted in the NFR, OCFO developed a program to generate journal entries to reverse
the erroneous components of SUEISO transfers. In addition, SUEISO transactions are
reviewed to determine their effect on unexpended appropriation balances and
cumulative results. The exceptions noted were isolated instances and their effect is not
material.

Furthermore, the posting and approval of journal entries will be electronically
segregated under the new core financial management system (NCFMS). Only
designated individuals will be able to post journal entries. The journal entries will not
take effect until electronically approved by designated supervisory personnel. The
documents supporting the journal entries will be scanned into NCFMS, thereby
providing the information necessary for an effective review and approval process.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

24. Reestablishment of the Unemployment Compensation Advisory Council

According to section 908 of the Social Security Act, starting in 1992 and “every 4th year
thereafter, the Secretary of Labor shall establish an advisory council to be known as the
Advisory Council on Unemployment Compensation.” The purpose of this council is to
“evaluate the unemployment compensation program, including the purpose, goals,
countercyclical effectiveness, coverage, benefit adequacy, trust fund solvency, funding
of State administrative costs, administrative efficiency, and any other aspects of the
program and to make recommendations for improvement.”

The last meeting of the Unemployment Compensation Advisory Council (UCAC) was in
1997.

Since the Social Security Act requires this council to meet every four years, ETA is not
in compliance with this requirement of the Social Security Act. ETA has proposed an
amendment to the Social Security Act in the Unemployment Compensation Program
Integrity Act of 2005, 2006, 2008, and 2009 that would require the Secretary of the
Department of Labor to establish an advisory council periodically instead of every four
years; however, Congress has not yet approved this amendment.


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       60                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

Furthermore, ETA does not believe that the UCAC is the most effective way to evaluate
the unemployment compensation program. As a result, ETA has taken the course to
have Congress change the requirement outlined in the legislation to read as follows:

    “Section 10 amends section 908 of the Social Security Act pertaining to the Advisory
    Council on Unemployment Compensation. Current law requires that the Secretary of
    Labor convene a new Council every four years. The amendments provide that the
    Secretary may periodically convene a Council and provides the Secretary the
    authority to define the scope of any such Council.”

Recommendation

We recommend that the Assistant Secretary for Employment and Training continue to
pursue having the Social Security Act amended.

Management’s Response

ETA continues to pursue an amendment to the Social Security Act that would require
the Secretary of the Department of Labor to establish an advisory council periodically
instead of every four years. Such an amendment has been included in the
Unemployment Compensation Program Integrity Act of 2005, 2006, and 2008 but has
not been acted upon by Congress. Consistent with the recommendation, ETA will
continue to work to advance an amendment to the Social Security Act. A proposal was
submitted to OMB as part of the FY 2010 UI Integrity legislative package which was not
cleared. A similar proposal will be included as part of the FY 2011 legislative package
and submitted to OMB and upon approval, will be sent to Congress.

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

25. Process for Completing Background Checks Investigations

During our review of the DOL and the National Institute of Standards and Technology
(NIST) guidance, we noted that background investigations must be initiated within 14
days of the employee’s start date. The employee’s servicing Human Resource (HR)
office initiates the investigation, and as a rule, HR office customer assignments are as
follows:

•   Office of Inspector General (OIG) employees receive HR services from the OIG HR
    office.



                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       61                   Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

•   All senior executive service, senior level, and political appointees receive HR
    services from the Office of Executive Resources and Personnel Security (OERPS),
    except those who are in the OIG.

Additionally, HR services for employees who do not receive HR services from the OIG
or the OERPS are provided as follows:

•   All employees who work in the agency headquarters office receive HR services from
    the agency’s HR office.

•   All employees who work in the Department’s headquarters office in a small agency
    that does not have an agency HR office receive HR services from the Office of
    Human Resources Consulting and Operations (OHRCO) in OASAM’s HRC.

•   All employees who are assigned to a field location outside the Washington, DC
    office receive HR services from the OASAM HR office that services the geographic
    location where the employee works.

We performed testwork over background investigations and noted that for the following
FY 2009 new hires selected for testing evidence that a background investigation was
properly initiated within 14 days of their hire date could not be provided:

•   2 of 2 OCFO Federal employees,

•   4 of 18 ESA Federal employees,

•   2 of 10 OASAM Federal employees, and

•   1 of 3 ETA Federal employees.

OASAM management stated that they have been working on performing corrective
actions to address this finding Department-wide as a result of our related FY 2008
comment. However, some of the corrective actions can involve a lengthy process, and
therefore, OASAM has not had the ability to fully implement these corrective actions.

The initiation and completion of background investigations provides management a key
layer of assurance regarding the integrity of the individuals accessing DOL financial
data. Without proper personnel security measures, such as background investigations
for personnel working with the DOL financial data, the integrity of the information assets
could be compromised.

The DOL Personnel Suitability and Security Handbook, Chapter 2, The Entrance On
Duty Process, Section 1, Purpose of Chapter & Overview, part D, When Investigations
are required, states, “DOL requires an investigation to be initiated before an individual


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                        62                  Report Number: 22-10-006-13-001
                                                                      Prepared by KPMG LLP
                                 for the U.S. Department of Labor—Office of Inspector General
                                                                                     Exhibit I

first enters on duty with the Department, or at the most, within 14 calendar days of
placement in the position.”

The DOL Computer Security Handbook, Version 3.0, Volume 13, Section II, Personnel
Security Procedures, states that “The Department and agency shall screen individuals
requiring access to Department and/or agency information and information systems
before authorizing access.”

NIST Special Publication 800-12, An Introduction to Computer Security, The NIST
Handbook, states that background screening helps determine whether a particular
individual is suitable for a given position. Within the Federal Government, the most
basic screening technique involves a check for a criminal history, checking FBI
fingerprint records, and other federal indices.

Recommendation
We recommend the Assistant Secretary of Administration and Management, as the
policy owner, continue to implement procedures to actively manage the background
investigation process for all new hires. These procedures should ensure that the
electronic-Office of Personnel Folder contains evidence that background investigations
are initiated within 14 days of the individual’s hire date as required by the DOL
Personnel Suitability and Security Handbook.

Management’s Response

Our management response remains the same as it was in our response to NFR-09-24,
dated October 24, 2009, which is as follows:

   Management agrees to take additional steps to ensure that background
   investigations are initiated within the required 14-day time frame. Such steps will be
   implemented immediately, and include the following:

   (1) The Director of Human Resources, OASAM, will issue a memorandum to all DOL
       Human Resources Officers (HROs) and Administrative Officers reinforcing their
       responsibilities for ensuring that background investigations are initiated as
       necessary within 14 days following a new hire’s entry on duty date, and requiring
       each HRO to submit reports to the OASAM Human Resources Center (HRC) on
       a regular basis certifying that they have reviewed the Background Initiation
       Report and confirmed that all required background investigations have been
       initiated.

   (2) HRC will incorporate review of background investigation initiation into its human
       resources accountability reviews, which are conducted on a two-year cycle to
       ensure that DOL human resources offices are conducting their activities in
       accordance with all applicable regulatory requirements.


                                                            Management Advisory Comments
                                                      For the Year Ended September 30, 2009
                                       63                   Report Number: 22-10-006-13-001
                                                                   Prepared by KPMG LLP
                              for the U.S. Department of Labor—Office of Inspector General
                                                                                  Exhibit I

Auditors’ Response

This recommendation is considered resolved and open. FY 2010 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.




                                                         Management Advisory Comments
                                                   For the Year Ended September 30, 2009
                                    64                   Report Number: 22-10-006-13-001
                                                                                                     Prepared by KPMG LLP
                                                                for the U.S. Department of Labor—Office of Inspector General
                                                                                                                    Exhibit II




Status of Prior Year Comments
The status of comments reported in the Management Advisory Comment (MAC) report dated March 18, 2009,
addressed to the Assistant Inspector General for Audit and the Acting Deputy Chief Financial Officer, U.S. Department
of Labor, is summarized in the table below. For each comment, we provided the current year status.

                                                                                                          FY 2009 Status
  2008        Fiscal Year     Title of Comment                                                             of Comment
Comment        Comment         Reported in FY          Recommendation(s) Reported in the FY               Reported in the
 Number       Originated          2008 MAC                        2008 MAC                                 FY 2008 MAC
                            Consolidated Financial   We recommended that the Chief Financial Officer: Open (See
    01           2008       Statements and                                                            Independent
                            Closing Package
                                                     1. Ensure that the Office of the Chief Financial Auditors’ Report
                                                        Officer (OCFO) personnel perform a more
                            Review Process                                                            comment no. 4)
                                                        detailed review of all information in the
                                                        Performance and Accountability Report (PAR)
                                                        and closing package including financial
                                                        statements, notes, supplementary information,
                                                        and supplementary stewardship information.

                                                     2. Update U.S. Department of Labor Manual
                                                        Series (DLMS) include guidance for the U.S.
                                                        Department of Labor (DOL) supervisors to
                                                        follow during their reviews, including
                                                        procedures for comparing financial data
                                                        reported on the different statements and notes
                                                        to ensure accuracy and consistency.
                            Certain Improvements     We recommended that the Chief Financial Officer: Open (See Exhibit
    02           2006       needed in Financial                                                        I comment no. 1)
                            Reporting
                                                     1. Develop and implement procedures to better
                                                                                            Management Advisory Comments
                                                                                      For the Year Ended September 30, 2009
                                                         65                                 Report Number: 22-10-006-13-001
                                                                                              Prepared by KPMG LLP
                                                         for the U.S. Department of Labor—Office of Inspector General
                                                                                                             Exhibit II




                                                                                                   FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                           of Comment
Comment    Comment        Reported in FY        Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                      2008 MAC                                 FY 2008 MAC
                                                 link the Statement of Net Cost (SNC) to DOL’s
                                                 strategic mission.

                                              2. Formally     consult with the Office of
                                                 Management and Budget (OMB) to determine
                                                 whether or not the Pension Benefit Guaranty
                                                 Corporation (PBGC) performance information
                                                 should be reported in DOL’s PAR.
  03         2006       Budgetary             We recommended that the Chief Financial Officer: Open (See Exhibit
                        Reconciliations and                                                       I comment no. 2
                                              1. Revise the current procedures to require the
                        Analyses                                                                  and Independent
                                                 recording of anticipated recoveries and
                                                                                                  Auditors’ Report
                                                 anticipated appropriations in the general ledger
                                                                                                  comment no. 4)
                                                 and reporting of them on the SF-133s
                                                 throughout the year as required by OMB
                                                 Circular No. A-11. Also, provide supervisors
                                                 with specific guidance on the proper review of
                                                 the quarterly reconciliations between the SF-
                                                 132 and SF-133, to include reviewing to ensure
                                                 that all Treasury Account Fund Symbols
                                                 (TAFS) have been reconciled, the most current
                                                 source documentation was used, and all
                                                 differences have been identified and explained.
                                              2. Reconcile and disclose distributed receipts in
                                                 the Statement of Budgetary Resources (SBR)
                                                 to President’s Budget reconciliation and
                                                 explain material differences identified in
                                                 compliance with OMB requirements. In

                                                                                     Management Advisory Comments
                                                                               For the Year Ended September 30, 2009
                                                  66                                 Report Number: 22-10-006-13-001
                                                                                            Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General
                                                                                                           Exhibit II




                                                                                                    FY 2009 Status
  2008    Fiscal Year   Title of Comment                                                             of Comment
Comment    Comment       Reported in FY      Recommendation(s) Reported in the FY                   Reported in the
 Number   Originated        2008 MAC                    2008 MAC                                     FY 2008 MAC
                                              addition, the OCFO supervisor or separate
                                              personnel other than the preparer of the
                                              reconciliation should sign and document his or
                                              her review in order to provide evidence that the
                                              review was completed in a timely manner.
                                           3. Complete implementation of comprehensive
                                              quarterly budgetary to proprietary analyses,
                                              including documented resolution of identified
                                              differences. These analyses should be
                                              documented, reviewed, and approved by an
                                              appropriate supervisor in a timely manner. In
                                              addition, documentation should be maintained
                                              to support these activities.
                                           4. Formally document the budgetary to
                                              proprietary analyses procedures and the
                                              expected timeframe for completion and review
                                              each quarter.
                                           5. Expedite the process for recording all
                                              adjustment entries at the end of the fiscal year
                                              and complete the quarterly reconciliations of
                                              the SF-133 to the SBR, including the
                                              completion of documented supervisory reviews
                                              over these reconciliations, by a certain date
                                              (e.g., 21 days after each quarter-end) that
                                              facilitates timely identification and correction of
                                              potential SBR misstatements. If necessary at
                                              year-end because of the posting of year-end
                                                                                    Management Advisory Comments
                                                                              For the Year Ended September 30, 2009
                                               67                                   Report Number: 22-10-006-13-001
                                                                                               Prepared by KPMG LLP
                                                          for the U.S. Department of Labor—Office of Inspector General
                                                                                                              Exhibit II




                                                                                                    FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                            of Comment
Comment    Comment        Reported in FY         Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                       2008 MAC                                 FY 2008 MAC
                                                  adjusting entries, a preliminary reconciliation
                                                  should be completed and reviewed in
                                                  conjunction with the submission of the initial
                                                  draft consolidated financial statements to the
                                                  auditors, with a final reconciliation occurring
                                                  after all adjustments have been posted.
  04         2008       Budget Apportionment   We recommended that:                               Open (See Exhibit
                        Process                                                                   I comment no. 3)
                                               1. The Assistant Secretary for Administration and
                                                  Management provide Departmental Budget
                                                  Center (DBC) staff and supervisors with
                                                  specific guidance on proper preparation and
                                                  review of the SF-132s prior to submitting the
                                                  forms to OMB.

                                               2. The Chief Financial Officer implement review
                                                  procedures to ensure that appropriations are
                                                  made available for obligation in the general
                                                  ledger system in accordance with the
                                                  appropriations law.
                        Recording Upward       We recommended that the Chief Financial Officer: Closed
  05         2007       Adjustments
                                               1. Ensure that the new general ledger system, to
                        Transactions
                                                  be implemented in October 2009, is configured
                                                  to properly record adjustments to current year
                                                  delivered and undelivered orders.

                                               2. Ensure adequate controls exist for the proper
                                                  recording of all adjustments to delivered and

                                                                                      Management Advisory Comments
                                                                                For the Year Ended September 30, 2009
                                                   68                                 Report Number: 22-10-006-13-001
                                                                                            Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General
                                                                                                           Exhibit II




                                                                                                 FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                         of Comment
Comment    Comment        Reported in FY      Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                    2008 MAC                                 FY 2008 MAC
                                               undelivered orders and not only those above
                                               the $50,000 threshold. Specifically, we
                                               continue to recommend that the controls
                                               identified should provide for the (a) retention of
                                               adequate supporting documentation, (b)
                                               proper timing of recording the entry, and (c)
                                               proper coding of all adjustments to the correct
                                               standard general ledger accounts. The control
                                               environment should also include provisions for
                                               appropriate management review.
  06         2008       Recording Budget    We recommended that the Chief Financial Officer: Open (See Exhibit
                        Authority                                                                 I comment no. 4)
                                            1. Amend current policies and procedures to
                                               properly and timely record budgetary and
                                               proprietary entries for the receipt of budget
                                               authority.

                                            2. Combine the transaction codes used to record
                                               budget authority so that such proprietary and
                                               budgetary entries are posted simultaneously.

  07         2007       Grant Monitoring    We recommended that the Assistant Secretary for Open (See Exhibit
                        Controls            Employment and Training ensure the following I comment no. 6)
                                            improvements are made to the Employment and
                                            Training Administration’s (ETA) internal control
                                            structure:
                                            1. Update ETA policy to improve documentation
                                               requirements for desk reviews and circulate the

                                                                                   Management Advisory Comments
                                                                             For the Year Ended September 30, 2009
                                                69                                 Report Number: 22-10-006-13-001
                                                                                            Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General
                                                                                                           Exhibit II




                                                                                                 FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                         of Comment
Comment    Comment        Reported in FY      Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                    2008 MAC                                 FY 2008 MAC
                                               policy to ensure all FPOs are aware of the
                                               timeliness requirement of the desk reviews.

                                            2. For the grants monitored in Grants
                                               eManagement System (GEMS), develop a
                                               report in GEMS to note when desk reviews
                                               have not been performed by the Federal
                                               Project Officer (FPO). In addition, the report
                                               should highlight/track desk reviews that are
                                               close to the completion deadline of 75 calendar
                                               days after the end of the calendar quarter.
                                               Supervisors should review these reports
                                               periodically and follow-up with the FPOs as
                                               appropriate.

                                            3. For the grants monitored in GEMS, develop a
                                               system alert to prompt FPOs to save and
                                               submit their reports before exiting the system.
                                               This would provide each desk review with a
                                               submission date, allowing for verification of
                                               timeliness of the review.

  08         2006       Grant Closeouts     We recommended that the Assistant Secretary for Open (See Exhibit
                                            Employment and Training improve the procedures I comment no. 5)
                                            for supervisory review of the grant closeout
                                            process. These procedures should include:
                                            1. Reviewing the Closeout Inventory Tracking
                                               System (CITS) with the Closeout Specialists
                                                                                   Management Advisory Comments
                                                                             For the Year Ended September 30, 2009
                                                70                                 Report Number: 22-10-006-13-001
                                                                                           Prepared by KPMG LLP
                                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                                          Exhibit II




                                                                                                 FY 2009 Status
  2008    Fiscal Year   Title of Comment                                                          of Comment
Comment    Comment       Reported in FY      Recommendation(s) Reported in the FY                Reported in the
 Number   Originated        2008 MAC                    2008 MAC                                  FY 2008 MAC
                                              periodically to determine the status of grant
                                              closeouts in conjunction with and/or in addition
                                              to regular monthly meetings;
                                           2. Following up with staff within 3-5 workdays to
                                              make sure that immediate action required as a
                                              result of the monthly meeting is completed;
                                           3. Following up on any grants that have not been
                                              closed within the established time frames;
                                           4. Ensuring that the Closeout Specialists are
                                              reviewing and reconciling the closeout
                                              documents within the established 45-day time
                                              frame;
                                           5. Ensuring that the Closeout Specialists are
                                              documenting any delays in closeout and
                                              including such documentation in the grant file;
                                              and
                                           6. Reviewing, on a sample basis, closeout
                                              documentation, specifically the Grant Closeout
                                              Preliminary Record/MOD Process History,
                                              Accounting Checklist, and de-obligation
                                              entries, to verify that they are all properly
                                              completed and approved and agree to all
                                              supporting documentation.
                                           In addition, we recommended that the Assistant
                                           Secretary for Administration and Management
                                           ensure that the Office of the Assistant Secretary
                                                                                  Management Advisory Comments
                                                                            For the Year Ended September 30, 2009
                                               71                                 Report Number: 22-10-006-13-001
                                                                                            Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General
                                                                                                           Exhibit II




                                                                                                 FY 2009 Status
  2008    Fiscal Year   Title of Comment                                                          of Comment
Comment    Comment       Reported in FY      Recommendation(s) Reported in the FY                Reported in the
 Number   Originated        2008 MAC                    2008 MAC                                  FY 2008 MAC
                                           for Administration and Management (OASAM)
                                           grant officers for the Office of Disability
                                           Employment Policy (ODEP) and the Bureau of
                                           International Labor Affairs (ILAB):

                                           1. Implement the DLMS procedures requiring the
                                              designation of a Closeout Specialist to handle
                                              the accounting aspects of closing out grants,
                                              such as de-obligating funds and following up
                                              with grantees to ensure unused funds drawn
                                              down are returned to Treasury.

                                           2. Develop and implement specific procedures to
                                              complete the grant closeout process within 12
                                              months of each grant’s completion in
                                              accordance with DLMS. These procedures
                                              should      include   (a)     performing   final
                                              reconciliations between Health and Human
                                              Services/ Payment Management System
                                              (HHS/PMS), the Department of Labor
                                              Accounting and Related Systems (DOLAR$),
                                              and the final cost reports to determine whether
                                              all funds drawn down were expended, (b) de-
                                              obligating funds not reported as expended,
                                              and (c) following up with grantees to ensure
                                              unused funds drawn down are returned to
                                              Treasury.

                                                                                   Management Advisory Comments
                                                                             For the Year Ended September 30, 2009
                                               72                                  Report Number: 22-10-006-13-001
                                                                                                Prepared by KPMG LLP
                                                           for the U.S. Department of Labor—Office of Inspector General
                                                                                                               Exhibit II




                                                                                                     FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                             of Comment
Comment    Comment        Reported in FY         Recommendation(s) Reported in the FY                Reported in the
 Number   Originated         2008 MAC                       2008 MAC                                  FY 2008 MAC
  09         2008       Grant Accrual Review   We recommended that the Assistant Secretary for Closed
                        Controls               Employment and Training implement procedures
                                               that require a more thorough managerial review of
                                               the grant accrual accuracy analysis and related
                                               ratio calculations.
  10         2008       Statement of           We recommended that the Assistant Secretary for Open (See Exhibit
                        Differences (FMS-      Administration and Management implement the I comment no. 11)
                        6652) Reconciliation   following monthly reconciliation and review
                        Process                procedures over the Statement of Differences
                                               (FMS-6652):
                                               1. Ensure that personnel are reviewing the FMS-
                                                  6652 report, the deposits, and disbursements
                                                  on a monthly basis.
                                               2. Ensure    that personnel retain supporting
                                                  documentation, whether electronic or hard
                                                  copy, to identify: (1) that FMS-6652
                                                  reconciliations are performed for deposits and
                                                  disbursements; (2) that these reconciliations
                                                  are completed timely; (3) that these
                                                  reconciliations are reviewed by someone other
                                                  than the preparer; (4) a log of unresolved
                                                  differences; (5) explanations for causes of
                                                  differences; and (6) corrective actions taken.
                                               3. Ensure that OASAM management, on a
                                                  quarterly basis, monitors the quality of the
                                                  performance of newly implemented procedures
                                                  by obtaining status reports and supporting
                                                                                       Management Advisory Comments
                                                                                 For the Year Ended September 30, 2009
                                                  73                                   Report Number: 22-10-006-13-001
                                                                                                  Prepared by KPMG LLP
                                                             for the U.S. Department of Labor—Office of Inspector General
                                                                                                                 Exhibit II




                                                                                                       FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                               of Comment
Comment    Comment        Reported in FY            Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                          2008 MAC                                 FY 2008 MAC
                                                     documentation that address the issues noted
                                                     in the bullets above.

                                                  In addition, we recommended that the Assistant
                                                  Secretary for Employment Standards:

                                                  4. Require that existing personnel are cross-
                                                     trained so that individuals are available to
                                                     perform certain duties in the event that
                                                     responsible parties are absent or unavailable
                                                     to perform their assigned duties.

  11         2008       Supervisory Review of     We recommended that the Assistant Secretary for Closed
                        the Monthly               Employment and Training direct the Office of
                        Reconciliation of State   Workforce Security (OWS) management to
                        Deposits                  document and implement procedures over the
                                                  state deposits reconciliations to include the
                                                  following:
                                                  1. Assessing the accuracy and completeness of
                                                     the macro used to report the total deposits per
                                                     Treasury in DOLAR$;
                                                  2. Assessing the reasonableness of explanations
                                                     provided for differences between the data
                                                     reported by Treasury and the States, and
                                                     following up on such explanations as needed;
                                                     and


                                                                                         Management Advisory Comments
                                                                                   For the Year Ended September 30, 2009
                                                     74                                  Report Number: 22-10-006-13-001
                                                                                                  Prepared by KPMG LLP
                                                             for the U.S. Department of Labor—Office of Inspector General
                                                                                                                 Exhibit II




                                                                                                       FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                               of Comment
Comment    Comment        Reported in FY           Recommendation(s) Reported in the FY                Reported in the
 Number   Originated         2008 MAC                         2008 MAC                                  FY 2008 MAC
                                                 3. Documenting (physically or electronically) the
                                                    completion of supervisory review.

  12         2006       Improper Cutoff of       We recommended that the Chief Financial Officer Closed
                        Collections Related to   develop and issue a standardized policy regarding
                        Custodial Revenue        the recording of collections by various DOL
                                                 agencies to ensure that financial reporting cutoffs
                                                 for custodial activities are proper and consistent.
                                                 Additionally, the Chief Financial Officer should
                                                 monitor agencies’ compliance with the policy.

  13         2006       Interest Receivable      We recommended that the Chief Financial Officer:      Closed
                        Calculation and
                                                 1. Standardize the procedures for recording
                        Accural Related to
                                                    accounts receivables related to DOL’s
                        Custodial Receivables
                                                    custodial activities.     Specifically, interest
                                                    receivable and penalties related to delinquent
                                                    debt should be accrued up to period end, or
                                                    until the debt is deemed uncollectible and
                                                    reserved for. In order to accomplish this, the
                                                    various subledger systems should be updated
                                                    so that interest is automatically calculated and
                                                    updated at period end. If no such change can
                                                    be implemented, the agencies should perform
                                                    a manual accrual calculation for the interest
                                                    and post the accrual to the general ledger, on a
                                                    quarterly basis.


                                                                                         Management Advisory Comments
                                                                                   For the Year Ended September 30, 2009
                                                     75                                  Report Number: 22-10-006-13-001
                                                                                               Prepared by KPMG LLP
                                                          for the U.S. Department of Labor—Office of Inspector General
                                                                                                              Exhibit II




                                                                                                    FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                            of Comment
Comment    Comment        Reported in FY         Recommendation(s) Reported in the FY               Reported in the
 Number   Originated         2008 MAC                       2008 MAC                                 FY 2008 MAC
                                               2. Implement one of the following procedures: (a)
                                                  include a disclosure in the custodial activity
                                                  footnote which specifically states the amount of
                                                  interest due on delinquent debt that has not
                                                  been written off, or (b) complete a formal
                                                  assessment to determine that such interest is
                                                  immaterial to the custodial activity footnote.
  14         2008       Recording Refunds      We recommended that the Chief Financial Officer: Closed
                        and Collection Fees
                        Related to Custodial
                                               1. Establish policies and procedures related to
                                                  the proper accounting for refunds of custodial
                        Activities
                                                  collections and collection fees.
                                               2. Develop and implement monitoring procedures
                                                  to ensure that all agencies with custodial
                                                  activities implement the refund and collection
                                                  fee accounting policies and procedures once
                                                  established.
  15         2008       Reconciliations        We recommended that the Assistant Secretary for Closed
                        between MSHA           Mine Safety and Health:
                        Standardized
                                               1. Revise the Mine Safety and Health
                        Information System
                                                  Administration’s (MSHA) monthly reconciliation
                        (MSIS) and DOLAR$
                                                  process to incorporate a comparison of the
                                                  MSIS year-to-date (YTD) collections activity as
                                                  of period end to the DOLAR$ YTD collection
                                                  activity as of period end, and identify and
                                                  explain any differences.
                                               2. Consider    using   the   deposit   information

                                                                                      Management Advisory Comments
                                                                                For the Year Ended September 30, 2009
                                                   76                                 Report Number: 22-10-006-13-001
                                                                                                    Prepared by KPMG LLP
                                                               for the U.S. Department of Labor—Office of Inspector General
                                                                                                                   Exhibit II




                                                                                                           FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                                   of Comment
Comment    Comment        Reported in FY            Recommendation(s) Reported in the FY                   Reported in the
 Number   Originated         2008 MAC                          2008 MAC                                     FY 2008 MAC
                                                     reported in MSIS as the source documentation
                                                     for deposits to be recorded into DOLAR$.
  16         2008       Controls over Internal-   We recommended that the Chief Financial Officer: Open (See Exhibit
                        Use Software                                                                   I comment no. 16)
                                                  1. Implement a review process to determine that
                                                     the agency is accurately reporting all costs that
                                                     are required to be capitalized or expensed.
                                                  2. Revise    the Certification for Internal-use
                                                     Software Projects Under Development reports
                                                     to include sufficient information on costs
                                                     capitalized and expensed for the fiscal year to
                                                     date.
                                                  3. Develop     and implement procedures to
                                                      compare the internal-use software assets and
                                                      amounts recorded in the Capitalized Asset
                                                      Tracking and Reporting System (CATARS) to
                                                      the internal-use software assets and amounts
                                                      reported by the agencies.
  17         2007       Accounting for Costs      We recommended that the National Director of the Closed
                        on Certain Job Corps      Office of Job Corps:
                        Contracts
                                                  1. Develop and implement written policies and
                                                     procedures to properly record NTC contractor
                                                     activities in accordance with the Statement of
                                                     Federal Financial Accounting Standards
                                                     (SFFAS) No. 1, Accounting for Selected Assets
                                                     and Liabilities, including identification of source
                                                     documents necessary to support the recording

                                                                                           Management Advisory Comments
                                                                                     For the Year Ended September 30, 2009
                                                      77                                   Report Number: 22-10-006-13-001
                                                                                                  Prepared by KPMG LLP
                                                             for the U.S. Department of Labor—Office of Inspector General
                                                                                                                 Exhibit II




                                                                                                        FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                                of Comment
Comment    Comment        Reported in FY           Recommendation(s) Reported in the FY                 Reported in the
 Number   Originated         2008 MAC                         2008 MAC                                   FY 2008 MAC
                                                    of these activities.
                                                 2. Establish procedures to require the review of
                                                     the contractor cost reports for accuracy and
                                                     completeness prior to the recording of the
                                                     associated costs into the general ledger, and to
                                                     take corrective action when a contractor
                                                     submits an inaccurate or incomplete cost
                                                     report.
  18         1997       Reestablishment of the   We recommended that the Assistant Secretary for        Open (See Exhibit
                        Unemployment             Employment and Training ensure that the                I comment no.24)
                        Compensation             Unemployment Compensation Advisory Council is
                        Advisory Council         reestablished as required by Section 908 of the
                        (UCAC)                   Social Security Act.
  19         2007       Monitoring Controls      We recommended that the Chief Financial Officer        Open (See Exhibit
                        over Child Agency        and the National Director of the Office of Job         I comment no.22)
                        Financial Data           Corps work together to develop procedures to
                                                 consistently monitor the amounts being reported
                                                 on the child entities’ trial balances. At a minimum,
                                                 these procedures should include procedures to
                                                 monitor the child entities’ controls over Fund
                                                 Balance With Treasury (FBWT) and the other
                                                 significant balance sheet accounts and to properly
                                                 follow-up on differences identified during the
                                                 quarterly comparisons of amounts reported on the
                                                 Civilian Conservation Centers (CCC) cost reports
                                                 to the amounts reported in the child entities’ trial
                                                 balances.

                                                                                         Management Advisory Comments
                                                                                   For the Year Ended September 30, 2009
                                                     78                                  Report Number: 22-10-006-13-001
                                                                                                Prepared by KPMG LLP
                                                           for the U.S. Department of Labor—Office of Inspector General
                                                                                                               Exhibit II




                                                                                                       FY 2009 Status
  2008    Fiscal Year    Title of Comment                                                               of Comment
Comment    Comment        Reported in FY         Recommendation(s) Reported in the FY                  Reported in the
 Number   Originated         2008 MAC                       2008 MAC                                    FY 2008 MAC
  20         2008       Accounting for the     We recommended that the Chief Financial Officer         Closed
                        Federal Employees’     formally consult with Treasury to determine the
                        Compensation Act       appropriate accounting treatment for all Federal
                        (FECA) Activities      Employees Compensation Act (FECA)-related
                                               activities and revise current procedures and
                                               transaction codes accordingly.
  21         2008       Controls over the      We recommended that the Assistant Secretary for         Open (See Exhibit
                        Integrated Federal     Employment Standards continue to stress the             I comment no. 20)
                        Employees              importance of Claims Examiner (CE) compliance
                        Compensation System    with the Manual related to timely follow-up for
                        (iFECS)                information supporting claimants continuing
                                               eligibility, regardless of the severity of their
                                               condition or their age.
  22         2008       Process for            We recommended that the Assistant Secretary for         Open (See Exhibit
                        Completing             Administration and Management, as the policy            I comment no. 25)
                        Background Checks      owner, implement procedures to actively manage
                        Investigations         the background investigation process for all new
                                               hires. These procedures should ensure that the
                                               electronic-Office of Personnel Folder (E-OPF)
                                               contains evidence that background investigations
                                               are initiated within 14 days of the individual’s hire
                                               date as required by the DOL Personnel Suitability
                                               and Security Handbook.
  23         2008       Controls over the      We recommended that the Chief Financial Officer         Closed
                        Maintenance of         ensure that the OCFO maintain a complete set of
                        Procurement            supporting documentation for each transaction
                        Supporting Documents   that is readily available for examination.


                                                                                        Management Advisory Comments
                                                                                  For the Year Ended September 30, 2009
                                                   79                                   Report Number: 22-10-006-13-001
                                                                Prepared by KPMG LLP
                           for the U.S. Department of Labor—Office of Inspector General
                                                                            Appendix A


Appendix A
                  ACRONYMS AND ABBREVIATIONS
ALC     Agency Location Code
APO     Accountable Property Officer
BLS     Bureau of Labor Statistics
CAMO    Capitalized Asset Management Officer
CAMS    Capitalized Asset Management System
CATARS  Capitalized Asset Tracking and Reporting System
CCC     Civilian Conservation Centers
CE      Claims Examiner
CFO     Chief Financial Officer
CIO     Chief Information Officer
CIP     Construction in Progress
CITS    Closeout Inventory Tracking System
DBC     Departmental Budget Center
DCAS    Division of Client Accounting Services
DFAR    Division of Financial Accountability and Reporting
DFSS    Division of Financial and System Services
DLMS    Department of Labor Manual Series
DOL     U. S. Department of Labor
DOLAR$  Department of Labor Accounting and Related Systems
DPPR    Division of Policy, Review, and Resolution
EBSA    Employee Benefits Security Administration
E-OPF   Electronic-Office of Personnel Folder
ESA     Employment Standards Administration
ETA     Employment and Training Administration
FBWT    Fund Balance with Treasury
FECA    Federal Employees Compensation Act
FFMIA   Federal Financial Management Improvement Act
FMS     Financial Management Service
FPO     Federal Project Officer
FY      Fiscal Year
GAAP    Generally Accepted Accounting Principles
GAO     Government Accountability Office
GCS     Grants Closeout System
GEMS    Grants e-Management System
G/L     General Ledger
GPRA    Government Performance and Results Act
GTS     Grants Tracking System
GWA     Government Wide Account Statement
HHS/PMS Health and Human Services/ Payment Management System
HR      Human Resource



                                                      Management Advisory Comments
                                                For the Year Ended September 30, 2009
                                  80                  Report Number: 22-10-006-13-001
                                                                  Prepared by KPMG LLP
                             for the U.S. Department of Labor—Office of Inspector General
                                                                              Appendix A

HRC      Human Resources Center
HRO      Human Resources Officers
IAC      Internal Accounting Code
IG       Inspector General
iFECS    Integrated Federal Employees Compensation System
ILAB     Bureau of International Labor Affairs
IMIS     Integrated Management Information System
IT       Information Technology
MD&A     Management’s Discussion and Analysis
MSHA     Mine Safety and Health Administration
MSIS     MSHA Standardized Information System
NCFMS    New Core Financial Management System
NOFR     Notice of Finding and Recommendation
NIST     National Institute of Standards and Technology
NTC      National Training Center
OASAM    Office of the Assistant Secretary for Administration and Management
OCC      Object Class Code
OCFO     Office of the Chief Financial Officer
ODEP     Office of Disability Employment Policy
OERPS    Office of Executive Resources and Personnel Security
OFI      Office of Fiscal Integrity
OHRCO    Office of Human Resources Consulting and Operations
OIG      Office of Inspector General
OJC      Office of Job Corps
OLMS     Office of Labor-Management Standards
OMB      Office of Management and Budget
OPS      Office of Procurement Services
OSHA     Occupational Safety and Health Administration
OWCP     Office of Workers' Compensation Programs
OWS      Office of Workforce Security
PAR      Performance and Accountability Report
PBGC     Pension Benefit Guaranty Corporation
PP&E     Property, Plant and Equipment
RSI      Required Supplementary Information
RSSI     Required Supplementary Stewardship Information
SBR      Statement of Budgetary Resources
SC       Substantial Completion
SFFAS    Statement of Federal Financial Accounting Standards
SGL      Standard General Ledger
SNC      Statement of Net Cost
SUIESO   State Unemployment Insurance and Employment Services Operations
TAFS     Treasury Account Fund Symbol
TFM      Treasury Financial Manual



                                                        Management Advisory Comments
                                                  For the Year Ended September 30, 2009
                                    81                  Report Number: 22-10-006-13-001
                                                               Prepared by KPMG LLP
                          for the U.S. Department of Labor—Office of Inspector General
                                                                           Appendix A

UCAC    Unemployment Compensation Advisory Council
UDO     Undelivered Orders
UI      Unemployment Insurance
USSGL   U.S. Government Standard General Ledger
UTF     Unemployment Trust Fund
VETS    Veterans’ Employment and Training Service
WB      Women’s Bureau




                                                     Management Advisory Comments
                                               For the Year Ended September 30, 2009
                                 82                  Report Number: 22-10-006-13-001
